<html>
<title> - REVIEWING THE PRESIDENT'S FISCAL YEAR 2014 BUDGET PROPOSAL FOR THE U.S. DEPARTMENT OF EDUCATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
                    REVIEWING THE PRESIDENT'S FISCAL
                   YEAR 2014 BUDGET PROPOSAL FOR THE
                      U.S. DEPARTMENT OF EDUCATION
=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 21, 2013

                               __________

                           Serial No. 113-18

                               __________

  Printed for the use of the Committee on Education and the Workforce


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            
            
            
  
                  U.S. GOVERNMENT PRINTING OFFICE
80-891                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


          
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Tom Price, Georgia                   Ruben Hinojosa, Texas
Kenny Marchant, Texas                Carolyn McCarthy, New York
Duncan Hunter, California            John F. Tierney, Massachusetts
David P. Roe, Tennessee              Rush Holt, New Jersey
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Timothy H. Bishop, New York
Brett Guthrie, Kentucky              David Loebsack, Iowa
Scott DesJarlais, Tennessee          Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Jared Polis, Colorado
Trey Gowdy, South Carolina           Gregorio Kilili Camacho Sablan,
Lou Barletta, Pennsylvania             Northern Mariana Islands
Martha Roby, Alabama                 John A. Yarmuth, Kentucky
Joseph J. Heck, Nevada               Frederica S. Wilson, Florida
Susan W. Brooks, Indiana             Suzanne Bonamici, Oregon
Richard Hudson, North Carolina
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 21, 2013.....................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     4
    Miller, Hon. George, senior Democratic member, Committee on 
      Education and the Workforce................................     5
        Prepared statement of....................................     7

Statement of Witnesses:
    Duncan, Hon. Arne, Secretary, U.S. Department of Education...     8
        Prepared statement of....................................    19

Additional Submissions:
    Questions submitted for the record by:
        Barletta, Hon. Lou, a Representative in Congress from the 
          State of Pennsylvania..................................    77
        Davis, Hon. Susan A., a Representative in Congress from 
          the State of California................................    79
        Holt, Hon. Rush, a Representative in Congress from the 
          State of New Jersey....................................    78
        Hudson, Hon. Richard, a Representative in Congress from 
          the State of North Carolina............................    77
        Chairman Kline...........................................    74
        Loebsack, Hon. David, a Representative in Congress from 
          the State of Iowa......................................    80
        Roby, Hon. Martha, a Representative in Congress from the 
          State of Alabama.......................................    77
        Rokita, Hon. Todd, a Representative in Congress from the 
          State of Indiana.......................................    75
        Sablan, Hon. Gregorio Kilili Camacho, a Delegate in 
          Congress from the Northern Mariana Islands.............    81
        Salmon, Hon. Matt, a Representative in Congress from the 
          State of Arizona.......................................    76
    Secretary Duncan, response to questions submitted for the 
      record.....................................................    82
    Mr. Rokita, letter, dated June 25, 2012, requesting 
      clarification and additional information from Secretary 
      Duncan.....................................................    53


                    REVIEWING THE PRESIDENT'S FISCAL
                   YEAR 2014 BUDGET PROPOSAL FOR THE



                      U.S. DEPARTMENT OF EDUCATION

                              ----------                              


                         Tuesday, May 21, 2013

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:05 a.m., in Room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Petri, McKeon, Wilson, 
Foxx, Roe, Thompson, Walberg, Salmon, Guthrie, DesJarlais, 
Rokita, Bucshon, Roby, Heck, Hudson, Messer, Miller, Hinojosa, 
McCarthy, Tierney, Holt, Davis, Grijalva, Bishop, Loebsack, 
Courtney, Fudge, Polis, Sablan, Yarmuth, Wilson, and Bonamici.
    Staff present: Katherine Bathgate, Deputy Press Secretary; 
James Bergeron, Director of Education and Human Services 
Policy; Casey Buboltz, Coalitions and Member Services 
Coordinator; Lindsay Fryer, Professional Staff Member; Amy Raaf 
Jones, Education Policy Counsel and Senior Advisor; Cristin 
Kumar, Professional Staff Member; Nancy Locke, Chief Clerk; 
Brian Melnyk, Professional Staff Member; Brian Newell, Deputy 
Communications Director; Krisann Pearce, General Counsel; Jenny 
Prescott, Staff Assistant; Mandy Schaumburg, Education and 
Human Services Oversight Counsel; Dan Shorts, Legislative 
Assistant; Nicole Sizemore, Deputy Press Secretary; Alissa 
Strawcutter, Deputy Clerk; Juliane Sullivan, Staff Director; 
Brad Thomas, Senior Education Policy Advisor; Tylease Alli, 
Minority Clerk/Intern and Fellow Coordinator; Kelly Broughan, 
Minority Education Policy Associate; Jody Calemine, Minority 
Staff Director; Jacque Chevalier, Minority Education Policy 
Advisor; Tiffany Edwards, Minority Press Secretary for 
Education; Jamie Fasteau, Minority Director of Education 
Policy; Scott Groginsky, Minority Education Policy Advisor; 
Brian Levin, Minority Deputy Press Secretary/New Media 
Coordinator; Megan O'Reilly, Minority General Counsel; Michael 
Zola, Minority Deputy Staff Director; and Mark Zuckerman, 
Minority Senior Economic Advisor.
    Chairman Kline. Before we begin, I would like to take just 
a moment to say a few words about the tornado that swept across 
central Oklahoma yesterday afternoon. According to recent 
reports--and we were checking this just a few minutes ago--as 
many as 91 people lost their lives and hundreds more have been 
injured.
    The death toll includes young children, many of whom were 
seeking shelter at local elementary schools. Emergency 
responders and volunteers are now putting themselves in harm's 
way to rescue neighbors, friends, and loved ones, and I 
sincerely hope for the safety and the safety of all those.
    My thoughts and my prayers are with the victims, their 
families, and the people of Oklahoma, and I know yours are, as 
well.
    And I now recognize Mr. Miller for any remarks he wishes to 
make.
    Mr. Miller. I thank the chairman, and I certainly want to 
join him in his remarks. We all have a sense of sadness and 
shock at what took place in Moore, Oklahoma. Some of us heard 
our colleagues, Tom Cole--it is his home town--describe the 
tragedy. And of course, this morning the numbers got worse.
    But the amazing response of that community to help one 
another and their first responders, I join you with giving them 
our very, very best thoughts and prayers. Thank you.
    Chairman Kline. I thank you, George.
    Let's take just a moment now and, please, all of us, to 
honor the victims and their families with just a brief moment 
of silence. [Moment of silence.]
    Thank you.
    Okay. A quorum being present, the committee will come to 
order.
    Well, good morning, and welcome back, Secretary Duncan. We 
realize your time is valuable and we do appreciate the 
opportunity to speak with you today about the President's 
budget proposal.
    I would like to begin with a brief overview of what is in 
the administration's budget for the upcoming fiscal year.
    The President has asked for more than $71 billion in 
discretionary funding for the Department of Education, up $5 
billion from last year's request and $3 billion from the year 
before. This is on top of a request for $7 billion in mandatory 
funding for Pell Grants, $17.5 billion to reform the teaching 
profession, and $1.3 billion for a new universal preschool 
program, bringing the total budget proposal to a, frankly, 
staggering $97.1 billion.
    Without question, the President's budget for the Department 
of Education has exploded over the last 5 years. The roughly 
$60 billion spent by the Department in 2009 seems almost 
reasonable by comparison.
    Yet despite the significant increase in education spending, 
we haven't seen any measurable improvements in student 
performance or graduation rates. It is time to acknowledge the 
fact that throwing more money into the nation's education 
system is not the right answer to the challenges facing our 
classrooms. We have tried it for decades now.
    Since passage of the Elementary and Secondary Education 
Act, federal spending on education has increased nearly every 
single year, but we just aren't seeing results. So we need to 
work together on a new way forward that will better serve 
students and taxpayers.
    Now, let's discuss an item that is not in the President's 
budget.
    Mr. Secretary, you and I have talked about this so many 
times. The very, very first time I ever saw you, when I was 
sitting over in that corner, we were talking about this 
subject, and that is the Individuals with Disabilities 
Education Act.
    Once again, the number in the President's budget is, in my 
judgment, simply appalling. Per the law, the federal government 
is supposed to fund up to 40 percent of the cost of education 
of students with special needs.
    Well, once again, the administration's budget does not even 
come close to that figure. In his budget request, President 
Obama's contribution to IDEA remains at a paltry 15---15 
percent.
    I am concerned that instead of meeting our commitments and 
improving existing initiatives, the administration continues to 
propose more spending for new, untested programs. For example, 
instead of more IDEA funding the President's proposed an 
expansive early childhood initiative. While we recognize the 
value of quality early learning experiences, we must remember a 
number of programs with similar goals are already out there, 
including Head Start, the Child Care and Development Block 
Grant, and dozens of state preschool programs nationwide.
    Reforming and improving existing programs throughout our 
education system should take precedence over new initiatives, 
and I believe this is one area Congress and the administration 
can work together. A large part of this effort must be 
rewriting the Elementary and Secondary Education Act.
    While I have made my concerns with the waiver process 
abundantly clear, I recognize the importance of freeing states 
and school districts from the law's outdated metrics and 
regulations. However, this must be done through a full 
reauthorization of the law, not executive fiat.
    Mr. Secretary, you and I agree on the importance of 
restoring local control and flexibility. You and I agree we 
must empower parents in our education system and support school 
choice initiatives. And you and I agree teachers should be 
judged on their ability to motivate students in the classroom.
    You have been repeatedly quoted in the press stating that 
you want Congress to reauthorize the law. The committee will 
soon renew its efforts to rewrite the Elementary and Secondary 
Education Act, and this time I ask for the administration's 
leadership as we work to advance the legislation to the House 
and Senate. We would like to put a new law on the President's 
desk before the end of the 113th Congress.
    Let me end on a positive note. I appreciate that, like--I 
know, George--I appreciate that, like Republicans, the 
President has acknowledged the value of moving student loan 
interest rates back to a market-based system. As you know, the 
committee recently approved, with bipartisan support, the 
Smarter Solutions for Students Act, legislation that mirrors 
the President's proposal that ties student loan interest rates 
to the 10-year Treasury note.
    I am grateful for the time you have spent working with us 
on this proposal, Mr. Secretary. Your input was valuable.
    I hope the administration will work with us to move this 
bill quickly through the legislative process and into the 
President's hands before the interest rate cliff hits millions 
of students on July 1st.
    Again, thank you for being with us today.
    I would now like to yield to the senior Democratic member 
of the committee, Mr. Miller, for his opening remarks.
    [The statement of Chairman Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman,
                Committee on Education and the Workforce

    I'd like to begin with a brief overview of what's in the 
administration's budget for the upcoming fiscal year. The president has 
asked for more than $71 billion in discretionary funding for the 
Department of Education--up $5 billion from last year's request and $3 
billion from the year before.
    This is on top of a request for $7 billion in mandatory funding for 
Pell Grants, $17.5 billion to ``reform the teaching profession,'' and 
$1.3 billion for a new universal preschool program--bringing the total 
budget proposal to a staggering $97.1 billion.
    Without question, the president's budget for the Department of 
Education has exploded over the last five years. The roughly $60 
billion spent by the department in 2009 seems almost reasonable by 
comparison. Yet despite this significant increase in education 
spending, we haven't seen any measurable improvements in student 
performance or graduation rates.
    It's time to acknowledge the fact that throwing more money into the 
nation's education system is not the right answer to the challenges 
facing our classrooms. We've tried it for decades now. Since passage of 
the Elementary and Secondary Education Act, federal spending on 
education has increased nearly every single year. But we just aren't 
seeing results, so we need to work together on a new way forward that 
will better serve students and taxpayers.
    Now let's discuss an important item that is not in the budget.
    Mr. Secretary, considering the glut of new spending in the 
president's budget, the lack of funding for the Individuals with 
Disabilities Education Act is simply appalling. Per the law, the 
federal government is supposed to fund up to 40 percent of the costs of 
educating students with special needs, but once again, the 
administration's budget does not even come close to that figure. In his 
budget request, President Obama's contribution to IDEA remains at a 
paltry 15 percent.
    I am concerned that instead of meeting our commitments and 
improving existing initiatives, the administration continues to propose 
more spending for new, untested programs. For example, instead of more 
IDEA funding, the president has proposed an expansive early childhood 
initiative. While we all recognize the value of quality early learning 
experiences, we must remember a number of programs with similar goals 
are already out there, including Head Start, the Child Care and 
Development Block Grant, and dozens of state preschool programs 
nationwide.
    Reforming and improving existing programs throughout our education 
system should take precedence over new initiatives, and I believe this 
is one area Congress and the administration can work together. A large 
part of this effort must be rewriting the Elementary and Secondary 
Education Act.
    While I have made my concerns with the waiver process abundantly 
clear, I recognize the importance of freeing states and school 
districts from the law's outdated metrics and regulations. However, 
this must be done through a full reauthorization of the law--not 
executive fiat.
    Secretary Duncan, you and I agree on the importance of restoring 
local control and flexibility. You and I agree we must empower parents 
in our education system, and support school choice initiatives. And you 
and I agree teachers should be judged on their ability to motivate 
students in the classroom.
    You have been repeatedly quoted in the press stating that you want 
Congress to reauthorize the law. The committee will soon renew its 
efforts to rewrite the Elementary and Secondary Education Act, and this 
time, I ask for the administration's leadership as we work to advance 
legislation through the House and Senate, get through the conference 
process, and put a new law on the president's desk before the end of 
the 113th Congress.
    Let me end on a positive note. I appreciate that, like Republicans, 
the president has acknowledged the value of moving student loan 
interest rates back to a market-based system. As you know, the 
committee recently approved with bipartisan support the Smarter 
Solutions for Students Act, legislation that mirrors the president's 
proposal to tie student loan interest rates to the 10 year Treasury 
note.
    I am grateful for the time you have spent working with us on this 
proposal, Mr. Secretary. Your input was very valuable. I hope the 
administration will work with us to move this bill quickly through the 
legislative process and into the president's hands before the interest 
rate cliff hits millions of students on July 1st.
    Again, thank you for being with us today. I would now like to yield 
to the senior Democratic member of the committee, George Miller, for 
his opening remarks.
                                 ______
                                 
    Mr. Miller. Thank you, Mr. Chairman.
    And thank you, Secretary Duncan, for joining us here today 
to discuss President Obama's agenda for transforming education 
in America.
    This hearing comes at a time when students and schools are 
making big transitions to new academic standards, to new 
assessments, to new accountability and school improvement 
systems, and teacher and principal evaluations. However, in all 
this movement forward, I fear that students and parents have 
lost a federal partner, creating an uncertain environment as a 
result of Congressional inaction.
    There is a failure to rewrite the Elementary and Secondary 
Act and there is the heavy hand of automatic budget cuts 
through sequestration. There is the danger of getting more than 
$20 billion--gutting more than $20 billion from the 
supplemental nutrition programs that help low-income families 
keep food on the table and their students prepared to come to 
school. There is the threat of piling on even more college debt 
onto students and families.
    And there is the continued threat of the Republican budget 
proposals that would drastically cut vital education resources. 
As reported just last week, the Department of Education is 
facing nearly a 20 percent reduction in funding on top of the 
cuts already made through sequestration. You may have noticed, 
as theywe prepare to send the military budgets forward with 
improvements, the cuts fall on education and we don't even know 
if that appropriation bill will get out of committee.
    With all of these, Congress is failing to provide the 
support to help students and families succeed at a time of 
massive transformation. For each of the past 2 years 
Republicans have released budgets filled with giveaways to the 
wealthiest Americans at the expense of educating our nation's 
children.
    This year isn't any different. In March, Republicans put 
forth a budget that not only keeps in place the across-the-
board cuts known as sequestration, but actually calls for even 
more draconian cuts in education programs across the country.
    In contrast, I am glad to see that President Obama 
recognizes education as an investment and not an expense. His 
budget seeks to ensure our nation is equipped to grow our 
economy and to help retain our global competitiveness.
    The Obama budget proposals recognize that competitiveness 
has to start early through quality, comprehensive early 
childhood education programs. Investing in greater access to 
high-quality preschool, child care, and voluntary home 
visitations is a proven way to close the achievement gap, 
strengthen school readiness, and prepare the next generation 
for high-skill jobs.
    President Obama is also rightfully outlining goals of our 
nation, including college and career readiness and returning 
the United States to first in the world in college graduation 
rates. Unfortunately, the Republican budget negatively impacts 
students by making it harder to go to college and harder to pay 
off debt. It would eliminate the in-school interest subsidy and 
allow interest rates to double for subsidized student loans.
    To add insult to injury, just last week the Republicans in 
this committee pushed through legislation that would put more 
debt on the backs of students in order to pay down the deficit. 
In fact, the Congressional Research Service found that students 
and families would pay a higher interest rate cost under the 
Republican proposal even if interest rates double. Students 
would be better off if we just let the interest rates double, 
and that is just unacceptable.
    This plan asks low-income students to pay down the debt 
while asking nothing from the more fortunate among us to pay 
their fair share in taxes. We can do better and we must do 
better. As my Democratic colleagues pointed out last week, 
education is a vital public good. We must serve the good with 
the public investment. We must also get back to the business of 
doing real legislative work.
    Mr. Secretary, 2 years ago you charged Congress to fix No 
Child Left Behind, but in the 2 years since then Congress has 
remained at a standstill. In the face of Congress' inability to 
act, you have given 37 states plus Washington, D.C. the needed 
relief from parts of NCLB that no longer work and are 
desperately in need of change.
    Almost a dozen waivers are still pending, and while I would 
much rather Congress achieve the full ESEA reauthorization, I 
understand why your action is necessary.
    That being said, I must say that I have serious concerns 
over some of the decisions the department has made in granting 
those waivers and how some of the states have implemented them. 
We see some states lessening their focus on student subgroups, 
on weakening the impact of performance targets, and moving away 
from focusing on graduating students with a regular diploma in 
a reasonable amount of time.
    I would remind you that the key to the federal role in 
education is to protect and promote equity. I imagine that you 
are beginning to plan with--how you will consider the renewal 
of these waivers by the states. As you do, I would urge you to 
hold a high bar for everyone to insist that they meet that high 
bar even where changes are necessary. You must be the 
conscienceconscience of the nation, resisting temptation to 
focus on what is good for adults rather than what is good for 
students.
    I wish we did not need to discuss the waiver renewal. I 
wish we were working in a bipartisan fashion to renew this law, 
the way we have done for many, many years over the history of 
the law. It is the only way we could get a bill to the 
President's desk and signed into law. Unfortunately, it doesn't 
appear that we are on that track.
    So in the meantime, I urge you to insist that our schools 
set high expectations for students, give educators and students 
the tools they need to meet those expectations, and implement 
the proposals made by almost every governor across this nation 
to improve their school systems with the help that they are 
getting from the waivers. And the Congress should now turn its 
attention to a full bipartisan reauthorization both of the 
Elementary Secondary Education Act and also the Higher 
Education Act so we can work out a bipartisan long-term fix for 
student aid questions.
    Thank you.
    [The statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Senior Democratic Member, 
                Committee on Education and the Workforce

    Thank you, Mr. Chairman. And thank you Secretary Duncan for joining 
us here today to discuss President Obama's agenda for transforming 
education in America.
    This hearing comes at a time when students and schools are making 
big transitions--transitions to new academic standards, new 
assessments, new accountability and school improvement systems, and 
teacher and principal evaluations.
    However, in all of this movement forward, I fear that students and 
parents have lost a federal partner, creating an uncertain environment 
as the result of Congressional inaction.
    There's the failure to rewrite the Elementary and Secondary 
Education Act.
    There's the heavy hand of automatic budget cuts through 
sequestration.
    There's the danger of gutting more than $20 billion from the 
Supplemental Nutrition Assistance Program (SNAP) that helps low-income 
families keep food on the table.
    There's the threat of piling even more college debt onto students 
and families.
    And there's the continued threat of Republican budget proposals 
that would drastically cut vital education resources.
    As reported just last week, the Department of Education is facing a 
nearly 20 percent reduction in funding on top of the cuts already made 
through sequestration.
    With all of these, Congress is failing to provide the support to 
help students and families succeed in a time of massive transformation.
    For each of the past two years, Republicans have released budgets 
filled with giveaways to the wealthiest Americans at the expense of 
educating our nation's children.
    This year isn't any different.
    In March, Republicans put forth a budget that not only keeps in 
place the across-the-board cuts known as sequestration but actually 
calls for even more draconian cuts to education programs across the 
country.
    In contrast, I am glad to see that President Obama recognizes 
education is an investment and not an expense. It seeks to ensure our 
nation is equipped to grow our economy and help retain our global 
competitiveness.
    The Obama budget proposal recognizes that competitiveness has to 
start early through quality, comprehensive early childhood education 
programs.
    Investing in greater access to high-quality preschool, child care, 
and voluntary home visitation is a proven way to close achievement 
gaps, strengthen school readiness and prepare the next generation for 
high-skill jobs.
    President Obama has also rightfully outlined goals for our nation 
including college and career readiness and returning the United States 
to first in the world in college graduation rates.
    Unfortunately, the Republican budget negatively impacts students by 
making it harder to go to college and harder to pay off debt. It would 
eliminate the in-school interest subsidy and allow interest rates to 
double for subsidized student loans.
    To add insult to injury, last week Republicans on this committee 
pushed through legislation that would put more debt on the backs of 
students in order to pay down the deficit.
    In fact, the Congressional Research Service (CRS) found that 
students and families would pay higher interest costs under the 
Republican proposal, even if interest rates doubled as scheduled for 
the neediest students in July.
    This plan asks low-income students to pay down the debt while 
asking nothing from the most fortunate among us to pay their fair share 
of taxes.
    We can do better. And we must do better. As my Democratic 
colleagues pointed out last week, education is a vital public good. We 
must serve that good with public investment.
    We must also get back to the business of doing real legislative 
work.
    Mr. Secretary, two years ago you charged Congress to fix No Child 
Left Behind. But in the two years since, Congress remains at a 
standstill.
    In the face of Congress's inability to act, you've given 34 states 
plus Washington, D.C. needed relief from parts of NCLB that they so 
desperately need. Almost a dozen waivers are still pending. While I 
would much rather Congress achieve a full ESEA reauthorization, I 
understand why your action was necessary.
    That being said, I do have serious concerns over some decisions the 
department has made in granting waivers and in how some states have 
implemented them.
    We see some states lessening their focus on student subgroups, 
weakening the impact of performance targets, and moving away from 
focusing on graduating students with a regular diploma in a reasonable 
amount of time.
    I would remind you that the key federal role in education is to 
protect and promote equity. I imagine you are beginning to plan for how 
you will renew some of these state waivers.
    As you do, I urge you to hold a high bar for everyone and to insist 
on changes where necessary. You must be the conscience of the nation, 
resisting the temptation to focus what's good for adults rather than 
what's good for students.
    I wish we did not need to discuss waiver renewals. I wish we were 
working in a bipartisan fashion to renew this law--the way we have done 
for years. It's the only way we could get a bill to the president's 
desk and signed into law.
    Unfortunately, that is not where we are.
    So in the meantime, I urge you to insist that our schools set high 
expectations for students and give our educators and their students the 
tools to meet those expectations.
    That is what we must all focus on in this Congress. A high-quality 
education is one of the most important opportunities we can give our 
children.
    Thank you, Mr. Secretary. I look forward to your testimony.
    I yield back.
                                 ______
                                 
    Chairman Kline. Thank the gentleman.
    Pursuant to committee rule 7(c), all committee members will 
be permitted to submit written statements to be included in the 
permanent hearing record. And without objection, the hearing 
record will remain open for 14 days to allow statements, 
questions for the record, and other extraneous material 
referenced during the hearing to be submitted in the official 
record.
    It is now my pleasure to introduce our distinguished 
witness. He is known, actually, to all of us really well. I 
just do want to make a couple of points that I always find 
interesting.
    Secretary Duncan was confirmed by the U.S. Senate on 
Inauguration Day, January 20, 2009.
    You have been with us quite a while, Mr. Secretary.
    And just to show his stick-to-itiveness, he is still here, 
and from 2001 to 2008 he was the longest-serving big city 
education superintendent in the country.
    Perseverance, Mr. Secretary. We are glad to have you. Floor 
is yours.

 STATEMENT OF HON. ARNE DUNCAN, SECRETARY, U.S. DEPARTMENT OF 
                           EDUCATION

    Secretary Duncan. Thank you so much, Mr. Chairman and 
members of the committee, and I just wanted to say again, on 
the Oklahoma situation--I spoke last night with the state 
superintendent, who does a fantastic job, Janet Barresi. 
Whatever we can do to help out in this situation, we are 
committed to do that.
    Placed a call to the local--Moore's public school 
superintendent, Susan Pierce, this morning. She is a 40-year 
veteran and was due to retire at the end of June.
    And I just want to thank all the heroic teachers and first 
responders. There has been significant loss of life, 
significant loss of the life of children in schools, but just 
amazing, amazing work done by teachers and administrators and 
first responders. And obviously, all of our thoughts and 
prayers are, frankly, with them this morning.
    I am pleased to be able to talk with you today about 
President Obama's vision for investing in education in ways 
that ensure quality opportunity for every child and that 
deliver a strong return on investment for the taxpayer's 
dollar. That ROI is so important, especially in tough economic 
times like this.
    As we walk through this conversation, I am going to ask you 
to visualize and keep in the back of your mind a 4-year-old 
little girl, because at the end of the day this isn't just 
about programs or accounts or budgets; it is about the 
consequences of the choices we make for real families and real 
children.
    I think and I desperately hope that we all agree that 
improving our education outcomes is a vital national interest 
that we all share. The decisions we make will have a major 
impact on our economy, on our economic competitiveness, and on 
that 4-year-old girl's chances of having the good life she 
deserves as part of a thriving middle class.
    That is a core American value, but right now, frankly, it 
is in some danger. You have already heard that we have lost our 
place as the global leader in college completion, that we now 
rank 14th.
    We should, frankly, be embarrassed. It is no badge of honor 
that we have fallen so far behind our international 
competitors. We want good jobs to stay in this country and not 
migrate overseas.
    Here is another indicator that should concern us: Let's 
start by looking at what is happening in employment for young 
adults.
    Next slide, please.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    In 2000 we were doing better than France, Britain, Japan, 
Germany, and Canada, but by 2011 we were doing worse than all 
of them. Why? David Leonhardt, the Pulitzer Prize-winning New 
York Times economics writer, said, and I quote--``The United 
States has lost its once large lead in producing college 
graduates, and education remains the most successful job 
strategy in a globalized, tech-heavy economy.''
    And that is why we are working so hard to try and improve 
opportunities for every child, to make the United States the 
global leader in college completion again. We have been working 
for 4 years to raise standards, improve teaching, establish 
strong systems of technology and data, fix our most broken 
schools, and make college more accessible and affordable. And 
we have made some real progress.
    Next slide, please.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Chairman, you sort of asked the question, ``Have we 
made progress?'' and I think while the progress is not fast 
enough--we have a long way to go--the honest answer is there 
has been real progress. High school graduation rates are at 
their highest level in over 3 decades, and for the first time 
in a long time we are actually on track to a 90 percent high 
school graduation rate by the year 2020.
    Next slide.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    We have talked a lot about the quote-unquote ``dropout 
factories,'' those high schools where 40, 50, 60 percent or 
more of young people are dropping out. In the past 3 years, 
from 2008 to 2011, we have 700,000 fewer children--less 
children--attending quote-unquote ``dropout factories.'' That 
is a big step in the right direction. Those young people now 
have a much better chance of not just graduating but then going 
on to some form of higher education.
    Next slide, please.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    In terms of Pell Grants--and we know Pell Grants often go 
to first generation college-goers, and English language 
learners, and folks who don't happen to be born with a silver 
spoon in their mouths. From 2008 to 2010 we went from about 6 
million Pell recipients to 9.4 million Pell recipients, more 
than a 50 percent increase. And again, these are young people 
who may be--are often the first in their families to ever have 
the opportunity to graduate from college.
    And then the enrollment rates--next slide, please? Yes, 
thank you.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The enrollment rates in the college have gone up 
significantly, particularly among the African American and 
Latino populations, which we think is so important. And in a 
country that is becoming majority minority, this is the face of 
our country as we move forward. So real progress there.
    And Hispanic students, 32 percent now attending college 
compared to 22 percent in 2000. African American, 38 percent 
today versus 30 in 2000. So real progress. Long way to go, but 
feel very good about that.
    Both you, Mr. Chairman, and Congressman Miller talked about 
the flexibility we are providing to states, and with up to 37 
states, and we think that is going absolutely in the right 
direction. Again, we would love to fix No Child Left Behind and 
fix it in a bipartisan way, but until Congress gets its act 
together we are going to continue to partner directly with 
states to make sure that they are not stuck with a law that is 
years outdated and had many perverse incentives in there.
    But we have a lot of hard work ahead of us.
    Next slide, please.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Too many low-income kids and minority children simply 
aren't receiving the education they need to reach the middle 
class. And let's look at these numbers, starting with high 
school.
    Fully 96 percent of kids from the highest income group 
complete high school. It is just almost a given--96 percent; 
while less than two-thirds, only 63 percent, of those who come 
from the lowest economic quartile do.
    The next slide is even more stunning and, I think, compels 
us to act.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Fewer than one in 10 of low-income children eventually 
graduate from college. Less than one in 10--9 percent. Compare 
that to more than half of our high-income students walking 
across the stage with a diploma. Not enough there either, but a 
huge difference in outcomes.
    Think about what that does and how that hurts us as a 
country--in jobs, in terms of our international 
competitiveness, and what it means for the lives of children 
and families who are trying to escape poverty and trying to 
escape psychosocial failure.
    Next slide.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    So how do we change the odds? Where should we invest to 
change?
    I want to read you a quick quote from James Heckman, who is 
a Nobel Prize-winning economist at the University of Chicago. 
He says, ``Investing in disadvantaged young children is a rare 
public policy with no equity-efficiency tradeoff. It reduces 
the inequity associated with the accident of birth and at the 
same time raises the productivity of society at large.''
    What is the most important single thing we can do in 
education to change those outcomes that I just talked about? 
And I am convinced it is investing in high-quality early 
childhood education--in preschool.
    On average, the average child from a low-income family 
starts kindergarten when they are 5 years old in September; 
they start school 12 to 14 months behind their peers in 
language development and pre-reading skills. That is morally 
and educationally unacceptable.
    And we know how to fix it. As Professor Heckman says, this 
is one of the few public investments with no tradeoffs because 
the ROI--the return on investment--of high-quality preschool is 
so high.
    Next slide.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    But to date, quite frankly, as a country we are not yet 
serious about preschool. The United States ranks 28th among 
OECD countries in the enrollment of 4-year-olds in early 
learning.
    And maybe that is not surprising. The United States also 
ranks 25th among OECD countries in public funding for early 
learning. And if we expect to compete effectively in a global 
economy, we have to invest in what matters most and what makes 
a difference.
    The President's Preschool for All proposal can be a game-
changer in expanding access and quality for the kids and 
families and communities who need it the most. It is a major 
investment to tackle a major issue.
    Think about that 4-year-old girl. Whether she is from 
Goodhue County, Minnesota; or Winston-Salem, North Carolina; or 
San Diego, she deserves a supportive, word-rich environment. 
She needs the chance to develop both her cognitive and non-
cognitive skills.
    She may not have a home life that can pick up that academic 
slack, but we can help support and strengthen struggling 
families. That young girl deserves access to high-quality 
preschool.
    Our international competitors are ahead of us. James 
Zimmerman, former CEO of Macy's, and John Pepper, former CEO of 
Procter & Gamble, have written, and I quote--``Universally 
available pre-kindergarten is not only the right thing to do, 
but the smart thing to do.''
    Other countries have realized this. China reportedly has 
set a goal of giving 70 percent of all children 3 years of pre-
kindergarten education.
    Why is it the smart thing to do? Because of the ROI--the 
return on investment.
    Dr. Heckman found that for every dollar we invest in 
preschool, that dollar returns $7 just in public funds. Some of 
that comes from greater productivity; some comes from reduced 
need for cash handouts and other supports. And almost $3 of 
every $7 comes from reduced costs of crimes and cops and jails.
    Stop and think about that one for a moment. We should ask 
ourselves, preschools or prisons? Where do we want to invest? 
What costs less? What helps society more?
    The answers are very, very obvious. Affordable, high-
quality early learning is the most important thing we can do in 
education to help children and help to strengthen families.
    But I can tell you what doesn't help: incoherent cuts to 
programs serving our most vulnerable students. Especially since 
it is up for a vote this week, I must address the House 
Appropriations Committee proposed FY2014 302(b) allocations. 
They represent a cut of 22 percent from FY13, pre-sequester 
level.
    Cutting education in that way would be a baffling, self-
destructive move that would devastate efforts to improve our 
international competitiveness. It is exactly the wrong thing to 
do for our economy. It would represent dumb government dumbing 
down America.
    Those cuts would multiply the damage of sequestration, 
which continues to hurt low-income and special needs students, 
young families counting on Head Start programs, military 
families, Native American children, and communities whose 
schools rely on Impact Aid.
    But together we can choose another path and make smart, 
strategic, long-term investments. Let's return our focus to 
plans with positive ROI.
    President Obama's proposed early learning investment is the 
front bookend of a cradle-to-career pipeline that aims to 
prepare students for college and for work. We are working to 
strengthen that pipeline with an emphasis on college 
completion, which has become the ticket to a solid middle-class 
life.
    Central to that effort is keeping interest rates low on 
student loans, which will require your action before July 1st 
to prevent those rates from doubling. We know that you share 
that concern, but we need to keep working with you to find an 
approach that will keep college affordable for students and 
families now and into the future.
    To make college more accessible we have dramatically 
simplified paperwork to make it easier for families to access 
federal student aid. The result will be even more high-need 
students attending college.
    In K-12, ESEA flexibility has provided crucial space for 
innovation and system-wide improvement, the best help we can 
get to states until you guys fix ESEA in a bipartisan manner. 
Under ESEA flexibility, we are seeing states raise standards, 
refine systems of support and accountability for schools, and 
hold more schools accountable for the learning of students with 
special needs and minority children, far too many of whom were 
literally invisible under No Child Left Behind.
    We have also acted to improve services for students with 
special needs. During our administration, we have requested 
hundreds of millions of dollars in increased funding in 
addition to the unprecedented $11 billion provided in the 
Recovery Act to students with special needs, including 
significant improvements at the preschool level.
    We are also focused on the needs of students in rural 
communities. Each of our 2014 competitive grant proposals will 
include criteria or priorities targeting rural areas 
specifically, and we welcome the input and thoughtfulness of 
Congress as we work to ensure that all of our competitive grant 
programs give strong opportunity to rural schools.
    We want to see every community in America have excellent 
opportunities. Our children and our nation deserve no less.
    What that improved opportunity adds up to is a return on 
investment for our economy and for America's families. 
According to a recent Brookings study, the benefits of a 
college degree compared to an investment that returns 15.2 
percent a year.
    We know that the engine of our economy in a globally 
competitive environment is the best-educated workforce in the 
world. It is the only way to build a strong, vibrant, and 
growing middle class.
    And we know that giving every child an opportunity is the 
right thing to do. It is who we are as a country.
    Thank you so much, and I look forward to your questions.
    [The statement of Secretary Duncan follows:]

           Prepared Statement of Hon. Arne Duncan, Secretary,
                      U.S. Department of Education

    Good morning Mr. Chairman and Members of the Committee. I'm pleased 
to be here today to talk with you about President Obama's priorities 
and plans for the Department of Education, particularly as they relate 
to the President's fiscal year 2014 budget request for education.
    This morning I'll sketch out some important progress made in the 
President's first term. I will highlight urgent educational challenges 
that remain, not only for our Nation as a whole but in every 
congressional district and community in the country. And I will talk 
about ROI--the return on investment in education spending--with special 
emphasis on the President's landmark preschool plan. Finally, I want to 
close by summarizing a number of other key elements of the President's 
education 2014 Budget.
    The big takeaway message here is that education is more than a set 
of numbers on the ledger line. Education is not just an expense--it's 
an investment. In fact, it is one of the most critical investments in 
the future that we, as a Nation, can make. America cannot win the race 
for the future without investing in education--it's that simple.
    Budgets entail value choices. They reflect the aspirations of our 
citizens and leaders. And I am glad to say that, for the most part, 
Federal education funding has enjoyed bipartisan support, even in tough 
times. In America we invest in the future, not just in spite of 
challenges, but as the means of overcoming them.
    Dating back to even before the States ratified the Constitution, 
the fledgling Continental Congress passed the Land Ordinance of 1785 
and the Northwest Ordinance of 1787, granting Federal lands to States 
to create and support public schools.
    In the midst of the Civil War, President Lincoln signed the Morrill 
Act, creating our Nation's land grant colleges. FDR signed the GI Bill 
during the midst of the epic battle of Normandy, expanding not only the 
opportunities for returning veterans but those of their children for 
generations to come.
    Fortunately, our Nation is not in the midst of World War II or the 
Civil War, and we are not in the midst of the Depression. But this is a 
time of fiscal challenges. And as President Obama said in his State of 
the Union address, it is a time to work for ``smarter government.'' We 
don't always live up to this goal in Washington. But I've yet to meet a 
lawmaker who has stated a preference for dumber government.
    Unfortunately, sequestration, with its indiscriminate cuts to 
education, the military, and other critical public investments, is not 
an example of government at its finest.
    You won't see our high-performing competitors funding education by 
sequester. In a knowledge-based, globally-competitive economy, our 
competitors are determined to invest in education. They want to 
accelerate their progress, not cut back on public education.
    South Korea's investment in education, as a percentage of GDP, 
increased by nearly a third from 2000 to 2009, whereas our investment, 
as a percentage of GDP, increased by just 6 percent. Education spending 
as a percentage of GDP rose at more than twice the U.S. rate in many 
other countries as well during the last decade, including Australia (up 
15 percent), Denmark (18 percent), and the Netherlands (21 percent).
    Today, the U.S. is one of only four Organization for Economic Co-
operation and Development--OECD--countries where students in low-income 
schools have to cope with higher student-to-teacher ratios than their 
peers in more advantaged schools.
    But the question is not just whether we should continue to invest 
in education, but how can we make smarter investments in education? How 
can our education system become more productive? One way to answer 
these questions is to look at the return on investment in our education 
policies.
Progress During President Obama's First-Term
    During the President's first term, the Administration worked hand-
in-hand with the Congress to make critical new investments in 
education. We launched new programs like Race to the Top and Promise 
Neighborhoods, redesigned the School Improvement Grants (SIG) program, 
and dramatically expanded the Pell Grant financial aid program for low-
income students. All of those efforts expanded educational opportunity 
and challenged the status quo where it had become unproductive.
    In a development that none of the experts foresaw, 46 States, plus 
the District of Columbia, came together to design and adopt the Common 
Core standards. For the first time, almost every State is supporting 
higher standards that show if students are truly college- and career-
ready--whether they are from Mississippi or Massachusetts. This was a 
sharp change from what we saw in the 4 years from 2005 to 2009, when 19 
States actually lowered their academic standards for students. We can 
thank courageous State leadership for stopping this insidious dummying 
down of standards.
    Today, we are starting to see the payoff of those first-term 
investments and setting higher expectations for our students. In 2010, 
the on-time high school graduation rate hit its highest level in 3 
decades. In 2008, less than two-thirds of Hispanic students graduated 
on time from high school. Today, about three in four Hispanic high 
school students graduate with their class.
    Because the graduation rate of Latino students rose from 2008 to 
2011, an additional 164,000 Latino students graduated on time. That is 
164,000 people with a better chance of getting a good job, owning their 
own home, and supporting a family.
    On-time graduation rates for African-American students are up, too. 
In 2008, only about three in five black students graduated from high 
school on time. Today, two in three do so, resulting in an additional 
83,000 African-American students graduating on time in 2011.
    These gains are due in part to a sharp drop in the number of high 
school dropout factories--schools where fewer than 60 percent of ninth 
graders graduate 4 years later. Since 2008, the number of high school 
dropout factories has dropped by almost 20 percent, from about 1,750 
high schools to roughly 1,425 high schools.
    For our families, that means nearly 700,000 fewer teenagers are 
trapped in those high schools today than in 2008. That is a big step in 
the right direction.
    In higher education, we're seeing substantial increases in college 
enrollment, too, especially for Hispanic students. More than half-a-
million additional Hispanic students--about 550,000 in all--are 
enrolled in college today than were enrolled in 2008. That is 550,000 
more people who are getting their shot at the American dream and the 
opportunity to thrive in a globally competitive world. And overall, the 
number of Pell Grant recipients has increased more than 50 percent, 
from 6.2 million in 2008 to more than 9 million 3 years later. That is 
the biggest expansion of educational opportunity in higher education 
since the GI Bill.
    In a knowledge-based economy, the ROI--the return on investment--
for many of the strategies the Administration has pursued is huge. We 
believe our efforts to support and strengthen the teaching profession 
through improved teacher evaluation, better professional development, 
and the RESPECT program will pay large, long-term dividends for our 
children and our communities.
    Economists at Harvard and Columbia have documented that having a 
good teacher rather than an ineffective one can increase the lifetime 
earnings of a class of students by over $260,000. Multiply that by the 
number of classes a teacher would instruct over the course of her 
career, and it is clear that even a single good teacher can have a 
multi-million dollar effect on the economy.
    The ROI for attending college is huge, too. Unlike when I and many 
members of the Committee were growing up, there are no good-paying jobs 
anymore for high school dropouts--and even those with a high school 
diploma struggle to make a living, with the average high school 
graduate making $1.3 million during his or her lifetime, compared to 
$2.3 million for the average college graduate.
The Theory of Action for the President's Preschool Plan
    Our focus on ROI is a key justification for President Obama's 
groundbreaking preschool proposal. Preschool for All would create a new 
Federal-State partnership to enable States to provide universal high-
quality preschool for 4-year olds from low- and moderate-income 
families, up to 200 percent of the poverty line.
    Contrary to what you may have heard, the President's plan would not 
be a new Federal entitlement program. States would use Federal funds to 
create or expand high-quality preschool programs in partnership with 
local school-based and community providers. States would provide an 
increasing match for the program, and every cent of the $75 billion 
provided by the Federal Government over the next 10 years would be paid 
for by increases in taxes on cigarettes and tobacco products. Our 
intent is for every State to choose to participate.
    Our theory of action in expanding high-quality preschool is going 
to be the same as it was in the first term, with a strong emphasis on 
supporting and partnering with States, incentivizing innovation, and 
identifying what works to strengthen education and accelerate 
achievement.
    That means that at the Federal level, we should be tight on ends 
but loose on means. The Department should set a high bar for quality in 
preschool programs. But it should leave it up to State and local 
leaders to choose the best means for reaching that bar.
    Under the President's plan, States would be required to meet 
quality benchmarks linked to better outcomes for children--like having 
high-quality State-level standards for early learning, qualified and 
well-compensated teachers in all preschool classrooms, and a plan to 
implement comprehensive assessment and data systems.
    The urgent need today for greater access to high-quality preschool 
for children from low- and moderate-income families is not really in 
dispute. Fewer than 3 in 10 4-year-olds today are enrolled in high-
quality preschool programs. And we know that, on average, children from 
low- income families start kindergarten 12 to 14 months behind their 
peers in language development and pre-reading.
    Despite these data, as the following charts demonstrate, the United 
States ranks 28th among industrialized nations in the enrollment of 4-
year-olds in early learning, and among 29 industrialized nations, the 
U.S. devotes less public spending to early learning as a percentage of 
GDP than 24.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

The ROI on High-Quality Early Learning
    In an era of tight budgets, it's essential that we ask ourselves, 
what is the smartest use of our education dollars? The answer, I 
believe, is that high-quality early learning is the best education 
investment we can make in our children, our communities, and our 
country. As President Obama has said, ``if you are looking for a good 
bang for your educational buck,'' high- quality preschool is the place 
to look.
    In the near-term, high-quality preschool reduces placements in 
special education. It reduces grade retention. It boosts graduation 
rates. In the long-term, high-quality preschool both increases the odds 
of holding a job and decreases crime and teen pregnancy.
    Nobel laureate James Heckman recently examined evidence from a 
rigorous, longitudinal evaluation of the Perry Preschool project and 
found that the high-quality preschool program returned seven dollars 
for every one dollar it invested. A longitudinal study of the Chicago 
Child Parent Centers also found an ROI of seven to one.
    States like Oklahoma and Georgia know about these data and are 
leading the way in creating universal preschool programs. In fact, 
numerous States led by GOP governors--including Alabama and Michigan--
are investing in quality and expanding coverage to more 4-year-olds.
    Not only are States investing in high-quality preschool, voters are 
approving sales tax and property tax increases to fund preschool 
initiatives. Last November, voters in San Antonio, Denver, and St. 
Paul, Minnesota, approved tax increases to support preschool programs 
in their communities.
    Voters and parents understand that in today's global economy, 
ensuring access to high- quality preschool is not a luxury but a 
necessity. They understand that investing in high-quality preschool is 
a win-win proposition, with a big economic return. And they understand 
that we have to stop playing catch-up in education. We have to level 
the playing field for young children, so everyone can begin 
kindergarten at the same starting line.
    This is why the centerpiece of President Obama's education budget 
for fiscal year 2014 is a pair of major new investments in early 
learning: a $75 billion mandatory request, over 10 years, to support 
the Preschool for All initiative; along with a $750 million 
discretionary request for Preschool Development Grants.
    Preschool for All would create a new Federal-State cost-sharing 
partnership aimed at making high-quality public preschool available to 
all 4-year-olds from low- and moderate- income families while also 
providing incentives for States to serve additional children from 
middle-class families. The companion Preschool Development Grants 
proposal would help build State capacity to implement the high-quality 
preschool programs required by Preschool for All.
Other Priorities in the President's 2014 Request for the Department of 
        Education
    These preschool proposals are part of an overall request of $71.2 
billion in discretionary appropriations for the Department of Education 
in fiscal year 2014, an increase of $3.1 billion, or 4.5 percent, over 
the fiscal year 2012 level.
    In addition to early learning, this request is focused on 
strengthening K-12 education, making our schools safer and creating 
positive learning environments, supporting career- readiness for all, 
improving affordability and quality in postsecondary education, and 
supporting the Administration's Ladders of Opportunity initiative for 
high-poverty communities.
Strengthening K-12 Education
    The 2014 request provides essential funding for traditional State 
formula grant programs that are the foundation of Federal support for 
State and local efforts to ensure that all students meet college- and 
career-ready standards, including a $14.5 billion request for the Title 
I Grants to Local Educational Agencies program and $11.6 billion for 
the Individuals with Disabilities Education Act Grants to States 
program. At the same time, we would continue our emphasis on creating 
meaningful incentives to leverage more effective use of Federal 
education funding in key areas such as putting a great teacher in every 
classroom and a great leader in every school; building local capacity 
to support successful school turnarounds; and improving teacher 
preparation and classroom instruction in science, technology, 
engineering, and mathematics (STEM).
Reforming Federal Support for Effective STEM Education
    The Administration is proposing a comprehensive reorganization of 
Federal STEM education programs as part of a Governmentwide realignment 
that would reorganize or restructure 116 programs across 13 agencies.
    Reforming Federal support to support an effective, cohesive 
national STEM education strategy is a top Administration priority. 
Scientists and engineers are key innovators in our society. They play 
an essential role in developing new industries and opportunities that 
create jobs and spur economic growth. Our Nation depends on an 
innovation economy, and America's capacity to build and create should 
never be limited by a shortage of talent in the STEM fields.
    At the core of this strategy for improving K-12 STEM education is a 
$150 million request for STEM Innovation Networks, which would support 
creating partnerships among school districts, institutions of higher 
education, research institutions, museums, community partners, and 
business and industry. These networks would develop comprehensive plans 
for identifying, developing, testing, and scaling up evidence-based 
practices to provide rich STEM learning opportunities in participating 
local educational agencies (LEAs) and schools. They also would work to 
leverage better and more effective use of the wide range of STEM 
education resources available from Federal, State, local, and private 
entities, including federally supported science mission agencies.
    Other key elements of the Department's STEM request include $80 
million for STEM Teacher Pathways to support the President's goal of 
developing 100,000 new effective STEM teachers by recruiting, training, 
and placing talented recent college graduates and mid-career 
professionals in the STEM fields in high-need schools; and $35 million 
to establish a new STEM Master Teacher Corps, which would identify 
teacher leaders in STEM fields who would take on leadership and 
mentorship roles in their schools and communities aimed at improving 
STEM instruction and helping students excel in math and science.
More Effective Teachers and School Leaders
    Consistent with the Administration's proposal to reauthorize the 
Elementary and Secondary Education Act (ESEA), the President's Budget 
would provide $2.5 billion for Effective Teachers and Leaders State 
Grants to provide flexible, formula-based support for States and LEAs 
that commit to improving their teacher and principal evaluation systems 
and to ensuring that low-income and minority students have equitable 
access to teachers and principals who are effective at raising student 
achievement. We also would renew our request for a 25 percent national 
activities set-aside totaling nearly $617 million that would allow the 
Department to build evidence on how best to recruit, prepare, and 
support effective teachers and school leaders and to invest in efforts 
to enhance the teaching and leadership professions.
    In addition, the budget includes $400 million for the reauthorized 
Teacher and Leader Innovation Fund, an increase of $100 million over 
2012, to help States and LEAs improve the effectiveness of teachers and 
leaders in high-need LEAs and schools, in particular by creating the 
conditions to identify, recruit, prepare, support, retain, and advance 
effective and highly effective teachers, principals, and school 
leadership teams in those schools. We also are asking for $98 million 
to support a redesigned School Leadership Program that would more than 
triple the Federal investment in training for principals. This proposal 
would promote evidence-based professional development for current 
school leaders aimed at strengthening essential leadership skills--such 
as evaluating and providing feedback to teachers, analyzing student 
data, developing school leadership teams, and creating a positive 
school climate.
Supporting School Turnarounds and Data-Based Innovation
    We would expand our commitment to helping States and school 
districts turn around their lowest-performing schools through a $659 
million request for the reauthorized School Turnaround Grants (STG) 
program. The request includes an increase of $125 million that would be 
used for competitive awards to help school districts build their 
capacity to implement effective interventions in persistently lowest-
achieving schools or priority schools, and to sustain progress in 
schools that have successfully completed a 3-year STG project. In 
addition, the Department could use up to $25 million of these funds to 
build district capacity by expanding the School Turnaround AmeriCorps 
initiative, a new partnership with the Corporation for National and 
Community Service that places AmeriCorps members in low-performing 
schools to support their school turnaround efforts.
    The request also would strengthen K-12 education through a $215 
million proposal for Investing in Innovation (i3), an increase of $66 
million, to expand support for using an evidence-based approach to test 
new ideas, validate what works, and scale up the most effective 
reforms. Up to $65 million would be available for the Advanced Research 
Projects Agency for Education (ARPA-ED), an initiative modeled on 
similar entities at the Departments of Defense and Energy that would 
aggressively pursue technological breakthroughs with the potential to 
dramatically improve the effectiveness and productivity of teaching and 
learning. And an $85 million request for statewide longitudinal data 
systems (SLDS) would provide an increase of $47 million to support the 
development of P-20 reports and tools to inform policy-making at the 
State and local levels, as well as the development of in-house analytic 
capacity for States and school districts.
Supporting Career-Readiness for All
    To out-innovate and out-compete the rest of the world, secondary 
schools and postsecondary institutions need to strengthen the links in 
our education system to better support career training and skills. The 
President's 2014 Budget seeks to promote career-readiness for all, in 
large part through a $1.1 billion request for a reauthorized Carl D. 
Perkins Career and Technical Education (CTE) program. The reauthorized 
CTE program would strengthen alignment among secondary and 
postsecondary CTE programs and business and industry, and create a 
better accountability system for improving academic outcomes, technical 
skills, and employability outcomes.
    We also are proposing $300 million for a new High School Redesign 
program, which would support partnerships of school districts, 
employers, and postsecondary institutions that would redesign high 
schools in innovative ways to ensure that all students graduate from 
high school with (1) college credit, earned through dual enrollment, 
Advanced Placement courses, or other postsecondary learning 
opportunities; and (2) career-related experiences or competencies, 
obtained through organized internships and mentorships, structured 
work-based learning, and other related experiences.
    In addition, we are asking for $42 million to fund a demonstration 
and evaluation of Dual Enrollment programs. This proposal would 
establish or expand dual enrollment programs, aligned with career 
pathways and local workforce needs, which offer high school and adult 
students the opportunity to earn college credits while enrolled in a 
high school or GED program. Research has shown that participation in 
dual-enrollment programs is linked to increased high school graduation, 
higher rates of college enrollment and persistence, and higher college 
credit accrual rates.
Affordability and Quality in Postsecondary Education
    The 2014 request continues to support the President's ambitious 
goal that America will once again have the highest proportion of 
college graduates in the world by 2020. The urgent and growing need for 
higher education reflected in the 2020 goal comes at a time when paying 
for college is a challenge for many American families. As a 
consequence, the President's budget proposes comprehensive reforms to 
increase affordability and quality in higher education, including $1 
billion for a new Race to the Top--College Affordability and Completion 
competition. That competition would drive change in State higher 
education policies and practices to improve college access, 
affordability, completion, and quality. The request also includes $260 
million for a First in the World fund, modeled after the Investing in 
Innovation (i3) program, which would make competitive awards to 
encourage innovation in higher education to tackle and improve college 
completion rates, increase the productivity of higher education, build 
evidence of what works, and scale up proven strategies. Funding would 
also support validation systems for competency-based learning, which 
has the potential to improve completion rates, and funding for programs 
that employ alternative validation systems that can demonstrate good 
outcomes for students at minimal to no cost for them.
    In addition to promoting systemic reforms in higher education, the 
President's 2014 request includes student aid proposals that would make 
college more affordable, including linking student loan interest rates 
to market rates and preventing a scheduled July 1, 2013, doubling of 
Subsidized Stafford Loan rates from 3.4 percent to 6.8 percent. The 
President's budget would expand repayment options to ensure that loan 
repayments for all student borrowers do not exceed 10 percent of a 
borrower's discretionary income, and significantly increase aid 
available under the Campus-Based Aid programs. For example, the request 
includes a $150 million increase for the Work-Study program as part of 
an effort to double participation over 5 years, as well as reforms to 
the Perkins Loans program that would expand loan volume by some eight 
and one-half times, up to $8.5 billion, while making Perkins Loans 
available at up to an additional 2,700 college campuses.
Building Ladders of Opportunity--and Promise Zones
    The President's 2014 Budget for education would help directly 
address the growing concern that too many communities in America--
urban, rural, and, increasingly, suburban--suffer from the negative 
effects of concentrated poverty, including developmental delays among 
young children, poor educational outcomes, high rates of crime and 
incarceration, health problems, and low employment. One new strategy 
for addressing the challenges of concentrated poverty is the Promise 
Zones initiative, which will revitalize high-poverty communities across 
the country by attracting private investment, increasing affordable 
housing, improving educational opportunities, providing tax incentives 
for hiring workers and investing in the Zones, and assisting local 
leaders in navigating Federal programs and cutting through red tape.
    This interagency effort will explore opportunities to make better 
use of all available resources--Federal, State, and local--to address 
the negative effects of concentrated poverty. The President's budget 
would support Promise Zones through significant requests in his 
signature place-based programs, including $300 million for the 
Department of Education's Promise Neighborhoods, a $400 million request 
for the Department of Housing and Urban Development's Choice 
Neighborhoods program, and $35 million for the Department of Justice's 
Byrne Criminal Justice Innovation Grants program, in addition to tax 
incentives to promote investment and economic growth.
Making Schools Safer
    In January of 2013, President Obama released his plan to reduce gun 
violence, make schools safer, and increase access to mental health 
services. The 2014 request supports this plan's common-sense proposals 
with new investments designed to improve school emergency plans, create 
positive school climates, and counter the effects of pervasive violence 
on students. For example, we are asking for $30 million in one-time 
emergency management planning grants to States to help their LEAs 
develop, implement, and improve emergency management plans designed to 
enable districts and schools to prepare for, prevent and mitigate, 
respond to, and recover from emergencies and crisis events.
    The request also includes $50 million for School Climate 
Transformation Grants, to be coordinated with related proposals at the 
Departments of Justice and Health and Human Services. These grants 
would help create positive school climates that support effective 
education for all students through the use of evidence-based behavioral 
practices. Funds would be used to scale up a multi-tiered, decision-
making framework that has been shown to reduce problem behaviors, 
decrease bullying and peer-victimization, improve the perception of 
school as a safe setting, and increase academic performance in reading 
and math. In addition, $25 million for Project Prevent grants would 
help school districts in communities with pervasive violence break the 
cycle of violence through the provision of mental health services to 
students suffering from trauma or anxiety (including PTSD), conflict 
resolution programs, and other school-based strategies to prevent 
future violence.
    I want to close by talking briefly about school safety and gun 
violence. This issue is very personal for me. Frankly, it's something 
that has haunted me from the time I was a little boy, growing up on the 
South Side of Chicago.
    I grew up playing basketball on the streets in many of Chicago's 
inner-city communities. I had older teenagers who looked out for me and 
who helped protect me. Far too many of them ended up being shot and 
killed. After graduating from college and playing ball overseas, I came 
back to Chicago to run an ``I Have a Dream'' program for a class of 
sixth graders. One of my first memories was of one of our young men, 
Terriance Wright, whose teenage brother was shot one afternoon.
    Going to that funeral, and trying to help that family through that 
process, was brutal. We have far too many parents burying their 
children--that is not the natural order of life. When I led the Chicago 
Public Schools, we lost one child due to gun violence every 2 weeks. 
That is a staggering rate of loss. In Chicago, we took steps that no 
public school system should ever have to take. We created burial funds 
for families that couldn't afford to bury their children.
    So, I absolutely refuse to accept the status quo. And I have two 
simple goals for change that everyone can agree on: first, that many 
fewer of our Nation's children die from gun violence; and second, that 
many more children grow up free from a life of fear.
    If we refuse to act now, if we refuse to show courage and 
collective will in the aftermath of the Sandy Hook massacre, I think we 
will never act.
    Sometimes the time picks you; sometimes you pick the time. Today, 
sadly, the time has picked us. If we don't move forward now in a 
thoughtful way to protect our children, then we, as adults, as parents, 
as leaders, have broken a trust with children to nurture them and keep 
them safe from harm.
    On my wall in my office in Chicago, I kept a picture that one of 
our teenagers had drawn for me. It was a picture of him as a fireman. 
And the caption that he wrote to go along with it was: ``If I grow up, 
I want to be a fireman.'' That's a deep statement about this young 
man's world. Think about what it means that so many of our youth today 
think about ``If I grow up,'' not ``When, I grow up.''
    Everything we are preaching to young people about going to college, 
building careers, deferring gratification, and planning for the future, 
is all undermined when a child is afraid they will get caught up in the 
craziness of gun violence. We need all our children, whether it is in 
Newtown, Connecticut, the South Side of Chicago, or Aurora, Colorado, 
to think of themselves in terms of ``when I grow up.''
    And when children do have that confidence, our opportunity gaps, 
our achievement gaps, will shrink. When that day comes, education will 
fulfill its role in America as the great equalizer. It will truly be 
the one force that overcomes differences in race, privilege, and 
national origin.
Conclusion
    The need is urgent. And I say to the committee, whether you are 
Republican or Democrat, our children and our country cannot wait. We 
cannot postpone providing every child with a world-class education.
    I look forward to working with you to develop and implement a 
fiscal year 2014 Budget for education that reflects the needs of our 
children and our Nation. And I would be happy to take any questions now 
that you may have.
                                 ______
                                 
    Chairman Kline. Thank you, Mr. Secretary--one of those 
days. You may be spared my questions entirely here.
    Secretary Duncan. It is part of my strategy.
    Chairman Kline. Yes, I know. It is working.
    I am going to begin, after clearing my throat, by taking a 
moment to talk about the President's proposal--your proposal--
to move to a market-based interest rate on all federal student 
loans.
    As you know, the basics of your plan, the administration's 
plan, falls largely in line with our goals for student loan 
interest rates. For example, your proposal moves to a market-
based interest rate on all loans; our proposal moves to a 
market-based interest rate on all loans. Your proposal is based 
off the 10-year Treasury note; so is ours.
    You have three different formulas for calculating the 
student loan interest rates. I thought it would be a little 
better to narrow it down to two; we can talk about it.
    We aimed to get our proposal as close to budget-neutral as 
we could and ended up with savings of $995 million over 5 years 
and $3.7 billion in savings over 10 years. Your proposal is a 
little different, costing $29.8 billion over 5 years and saving 
$6.7 billion over 10.
    To protect students in the high interest rate environments 
and try to find common ground with some of my colleagues on the 
other side of the aisle, our bill includes a reasonable 
interest cap. Your legislation does not include a cap but 
expands the income-based repayment program, bringing the total 
cost of your proposal to $33.4 billion over 5 years with $3.1 
billion in savings over 10 years.
    I would say our proposals are pretty close and others 
agree. I am going to quote for just a moment from a Washington 
Post editorial yesterday. It says, quote--``This year President 
Obama proposed pegging loan rates to the rate at which the 
government borrows plus a relatively modest markup. On Thursday 
the House Education and Workforce Committee endorsed a similar 
policy. Its bill may reach the House floor this week.'' It 
will, indeed, reach the House floor this week.
    Continuing, ``Backers of the President's plan and those 
behind the House's say the proposals are designed to be roughly 
budget-neutral over 10 years. There is no reason to delay 
passing such a policy.''
    So, Mr. Secretary, we have some competing ideas up here. I 
just want to get you on the record, if I can, as to where the 
administration stands. Are we going to go to an interest rate 
that has pegged to the market for a long-term solution or are 
we going to keep kicking the can down the road?
    Secretary Duncan. I just think, Mr. Chairman, that 
Congress, not just in this specific instance but generally, we 
have to start taking on tough issues. We have to take them on 
together in a bipartisan way, and we have to think for the long 
haul.
    So we are very interested in a long-term solution. We are 
interested in this being budget-neutral, not sort of trying to 
reduce the deficit on the backs of students. But I appreciate 
your thoughtfulness. We want to continue to work with you and 
other members.
    And the idea of coming back every 2 years to try and fix 
something, to me it is just a very--with all the real 
challenges that the--you know, the country is facing and what 
is going on today in Oklahoma, the fact that we can't think 
long-term, the fact that we can't sort of take a tough issue, 
deal with it, move it off the table, move onto other issues, I 
just don't understand that thinking.
    So we are interested in a long-term fix, we are interested 
in it being budget-neutral, and look forward to continued 
conversations with you and others to try and find some common 
ground.
    Chairman Kline. Thank you. Mr. Secretary, I hope we can 
continue to work together as we bang this thing through the 
legislative process over the next couple of weeks.
    I mentioned this briefly to you earlier today so I am going 
to ask that you give me some information for the record, but as 
you know, the Regulatory Flexibility Act of 1980--that is how 
long this law has been around--requires federal agencies to 
publish in April and in October semiannual regulatory agendas 
in the Federal Register describing economically significant 
regulatory actions that are being developed. Further, Executive 
Order 12866--you may win this thing yet--requires agencies to 
publish every 6 months a regulatory agenda, including all 
regulations under development or review during the 12 months 
following publication.
    Let me cut to the chase. Last year, for the first time 
since 1980, we had an administration that didn't publish the 
spring agenda at all--just skipped it. And when the fall agenda 
came due, well, they just let that go past, too, until they 
published it on December 21st.
    We are in a new year. April has passed us; we haven't seen 
such an agenda.
    So my question for you, Mr. Secretary, for the record is, 
can you tell us when the Department of Education submitted its 
input to OMB?
    Secretary Duncan. Yes, sir. On May 8th.
    Chairman Kline. There you go. Thank you very much.
    Well done, Gabby.
    I know. That is why you bring them. I know----
    Secretary Duncan. They are a lot smarter than I.
    Chairman Kline. Yes. Well, they are all smarter than us.
    All right, I am--my time is about to run out. I just want 
to make the point again about the administration has brought 
forward a very, very big new proposal. You explained it, you 
talked about early education for 4-year-olds in the country. It 
is a cost of over $70 billion over a 10-year period, and you 
really didn't do anything for IDEA.
    And when I go and sit down with principals and teachers and 
superintendents and parents at roundtables in my district and I 
ask them, ``What is the most--single most important thing the 
federal government can do for you?'' it is to step up and meet 
the federal government's obligation--obligation to fund special 
ed.
    Once again, I am just disappointed, Mr. Secretary. My time 
is expired.
    Mr. Miller?
    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Secretary, thank you very much for your comments on the 
302(b) allocations. I think this is just a dagger that is aimed 
at the heart of the federal role in education and has huge 
ramifications for local schools.
    I would also say, there is a big difference between your 
plan and the President's plan in the fact that you lock 
students in to get the long-term benefit of the low interest 
rates today as opposed to the variable rates, which locks them 
in at a much higher rate later on and they don't know what the 
cost of college is going to be.
    I want to go back to the point I was making with respect to 
the waivers, and I want to make very clear that there is an 
understanding between us that No Child Left Behind, as was 
ESEA--perhaps No Child Left Behind more successfully than the 
ESEA in many ways--that this a fundamental civil rights law of 
this country. That is how President Bush saw it. You may 
remember the anger when President Bush said that the system had 
the soft bigotry of low expectations for many students inside 
the American education system, but the fact was that these 
students were hidden, their performance was washed out by 
averages and a constant changing of the benchmarks, and we 
can't go back there.
    And I am glad to see what is happening on graduation rates 
but we have got to understand that the graduation rate has to 
be real, and we now see some states suggesting that they want 
to do something that is sort of sub-GED, and maybe graduating 
students over 6 years or what have you. I have no problem 
trying to recover students who didn't make the 4-year cycle, 
and we have seen successful efforts in New York State to do 
that and elsewhere in some of the larger cities, with really 
successful recoveries to a regular diploma.
    But, you know, we lamented before No Child Left Behind that 
students couldn't read the diploma that they were granted. Now 
the question is, what does the diploma mean to an employer, to 
a college, and others?
    And we have got to maintain that integrity in this system 
as you go through the renewals on waivers--around this 
question, because as we know, we had dropout factories that 
were making AYP; they just happened to be losing 50 percent of 
the students on the way to graduation. And we cannot let states 
start to construct some semblance of that system as they seek 
relief from the tough chore of getting excellence on behalf of 
our students and getting proficiency on behalf of our students, 
so point made.
    Finally, I just want to thank you so much, and the 
administration and the President, for emphasizing early 
childhood education. It is very clear the benefits of early 
childhood education.
    I realize there is sort of a fad among the education elites 
now sort of suggesting that perhaps it makes no difference, 
that really it doesn't make any difference. I always find that 
interesting when you know how much rich people are prepared to 
pay for the early childhood education and development 
opportunities for their children. People pay $30,000, $40,000, 
$50,000, $60,000 a year for that experience in Washington, 
D.C., major metropolitan areas, and elsewhere, seeking to have 
their child have that advantage starting school.
    The difference they make is they then take their child from 
that early childhood high-quality environment and they put them 
in a good school. So we put them into a terrible school and we 
say, ``Oh, it didn't work.'' I would lose grade year competency 
if I was in some of these schools.
    And so I think that we have got to understand that this is 
a continuum. All of the science that we have learned about 
brain development, about skills development, about vocabulary 
acquisition, and all of those fundamental skills tell us that 
this is a very wise investment.
    As I understand--and I know we are still in the drafting 
stage there on the President's program--basically, he is 
providing money to states for states to make the decisions 
about; all they have to do is be willing to invest in high 
quality--to improve the quality of the existing system and to 
expand the participation, and that is what the money is. They 
decide how they want to allocate this in the earliest drafts 
that I have seen.
    So this isn't about us telling the states what to do; it is 
about us providing resources to help them meet the demand and 
the quality issues.
    Secretary Duncan. I will try and respond to each of your 
points. So on the first point of maintaining a high bar and the 
civil rights commitment through waivers and going forward, 
hopefully, with reauthorization, please know that you have my 
commitment and you have been an absolute champion here, and I 
appreciate your leadership so much.
    One of the biggest benefits of the waivers, which I think 
people still don't fully understand, is again, there are 
literally hundreds of thousands of children with special needs, 
minority children who were invisible under No Child Left 
Behind--was not the intent, but that is what happened.
    And states are now holding themselves accountable for 
children who didn't exist under the previous accountability 
system. That is a huge step in the right direction. We need to 
maintain that bar as we go forward.
    On the House budget, just to be very, very clear--I 
appreciate your commitment to try to fund more for special 
needs children. With the House Appropriations' 302(b) 
allocation there would be a cut in IDEA funding of over $2 
billion--$2.04 billion. So it is clearly not going the 
direction that you propose.
    And the investment in early childhood education would 
actually lead to a reduction in young people being labeled 
``special education'' and would, you know, reduce those costs 
over time.
    But this is the best--Mr. Chairman, Congressman Miller, 
this is the best investment we can make. Again, when you have a 
Nobel Prize-winning economist who comes to this very 
skeptically, frankly, and talks about a minimum of a seven-to-
one return on investment, how many investments does this body 
make where you get a seven-to-one return on investment?
    And we just have to get out of the dysfunction. We have to 
stop thinking short-term. This is a long-term play. The 
benefits are 10, 15, 20, 30 years out.
    Politicians too often are wired to think about short term--
the next election cycle. But if we invest in high-quality early 
childhood education--today less than 3 in 10 of our children 
have access to high-quality pre-K, and then we wonder why we 
have achievement gaps. We wonder why we are always playing 
catch up.
    We can fix this at the front end, make the right 
investment, make sure it is high-quality. It is not a mandate 
to states; it is an option.
    And the reason, again, for all the dysfunction here in 
Washington, I am actually hopeful about this because we see 
governors in a bipartisan way, Republican and Democrat, who are 
investing very significantly in early childhood because they 
get it. They understand it. We just want to partner with states 
that are interested in investing themselves.
    Chairman Kline. Gentleman's time has expired.
    Just a comment, Mr. Secretary, before I recognize Ms. Foxx. 
I do battle with my own party on special ed, as well, but 
whatever those issues are doesn't change the fact that once 
again, the President has, in my judgment, ignored that--what 
should be a commitment and obligation of the federal 
government.
    Ms. Foxx?
    Ms. Foxx. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here.
    Mr. Secretary, the program integrity regulations have been 
the center of intense scrutiny from the higher education 
community and Members on both sides of the aisle in Congress. 
As you know, the courts have invalidated several of these 
regulations, yet you recently announced the Department plans to 
reregulate both gainful employment and the distance education 
piece with state authorization.
    The House has had strong bipartisan votes opposing both of 
these regulations. Why do you continue to pursue flawed 
regulations and what changes to the regulations are you 
considering?
    Secretary Duncan. Well, obviously part of what we are doing 
to go up through negotiated rulemaking is to hear public 
comments and to get good feedback, and we welcome your 
feedback, your staff's feedback. And all we are going to do, 
very simply, is where you have, you know, on the gainful side, 
we have--if we are going to hit the President's goal of leading 
the world in college graduation rates we need everybody 
producing students who are graduating with real skills. We----
    Ms. Foxx. Mr. Secretary, are you willing to make the 
gainful employment apply to everybody in higher education?
    Secretary Duncan. Well, we need to sort of talk through a 
number of issues here. My point is, what we want to do is we 
want to make sure that real training is leading to real jobs, 
and where that is happening we want to see that happen more 
often.
    Where you have folks who are already struggling financially 
going in greater debt and not having an opportunity to get a 
good-paying job, they will be in a worse financial position 
when they started. I think that is a poor use of taxpayer 
dollars.
    Ms. Foxx. Mr. Secretary, my colleagues will tell you, I am 
very sensitive about the word ``training'' as opposed to 
``education.'' I think we educate people and we train animals.
    I remain concerned, Mr. Secretary, about the current state 
authorization regulation and newly announced rulemaking 
session. It is one thing to say that states must authorize 
institutions that operate within their states; it is entirely 
another to dictate precisely how these states are to do it, and 
then if you don't agree with it, punish the students who are 
attending the institutions within the state.
    Aren't you using the federal regulatory process to push 
states into regulating institutions according to a federal 
prescription?
    Secretary Duncan. No, I don't think so. Again, we just want 
to make sure that--we want to lead the world in college 
graduation rates. We used to lead the world; today we are 12th.
    You should be ashamed of that. I should be ashamed of that. 
Everyone here should be ashamed of that.
    We want to get better and we want to make sure that where 
significant taxpayer dollars are going to institutions, they 
are doing a good job of educating young people.
    Ms. Foxx. One more thing on the state authorization: You 
have issued a ``dear colleague'' letter in March 2011, but 
how--about how the states can come in compliance. You have 
extended the deadline twice. Can you identify which states 
still need to come into compliance and what notice is being 
given to them?
    Secretary Duncan. I don't have that here but we are happy 
to get you that information right away.
    Ms. Foxx. Thank you.
    Mr. Chairman, I have noted the charts that the Secretary 
brought today, and I simply must make a couple of comments 
about them. You know, I don't know who it was who said, ``There 
are lies, damned lies, and then statistics.''
    Having dealt with that all my life, I was very curious on 
this high-quality preschool issue, that it is given to us as a 
percentage of GDP and that number one is Denmark, which has 
5,000,574 people in 2011, and they, indeed, spent $10,429; they 
are number one. Iceland is number two; their population is 
319,000 and they spent $9,745 per student.
    And number three is the Russian Federation. I am not sure 
that we want to compare the United States of America to these 
other places, especially the Russian Federation.
    But I would like to point out that the United States spent 
more per student than any of these places that are highlighted. 
We spent $10,995.
    So if you want to look at it as a percentage of GDP, but we 
are really not comparing apples and apples. We are comparing 
apples and tangerines, I guess, I am not sure, if you look at 
Iceland and Denmark in comparison to us, in terms of numbers, 
with 320 million people.
    Secretary Duncan. Let me be really clear here: children in 
your congressional district aren't competing for jobs in your 
district or in your state; they are competing for jobs with 
children in Singapore, in South Korea, in India, in China, in 
Russia, in Denmark, in Iceland. And we either want our children 
to be able to compete for those high-wage, high-skill jobs and 
keep those companies in our country, or we are going to see 
those companies migrate to where the most skilled workers are. 
That is the choice we have to make.
    Ms. Foxx. And we are spending more per student than those 
places, so----
    Chairman Kline. The gentlelady's time has expired.
    Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Mr. Chairman.
    Secretary Duncan, it is always a pleasure to have you 
testify before this committee, and thank you for your 
outstanding leadership and perseverance for joining us on the 
Education and Workforce Committee, as I said.
    I am pleased that President Obama's proposed 2014 budget 
makes strategic investment in early learning and also on K-12 
and higher education. I have been a strong champion for 
education K-20, and I have a daughter out of--the second out of 
four girls--specialized in early learning preschool education 
for pre-kindergarten programs, 3-and 4-year-olds.
    She was chosen as the outstanding teacher in that category 
in about 38 school districts and she oftentimes reads what we 
are doing in Congress and makes the comment that not enough 
children are being given that opportunity with 3-and 4-year-
olds. And certainly, one of the charts that is in the material 
you gave us, high-quality preschool, the U.S. ranks 25th in 
public funding for early learning out of 36 countries, 
certainly is in line with what she is telling me going on in 
Texas.
    So let me say, Secretary Duncan, that in your testimony you 
highlight that the graduation rate for Latino students has 
improved from 2008 to 2011, with an additional 164,000 Latino 
students graduating on time, and I understand that high school 
graduation rates for African American students also improved, 
so that today two in three African American students are 
graduating on time, and to me that is progress. So I 
congratulate you.
    And I am glad to see that we are making this progress in 
closing the achievement gaps for those students. Looking at the 
chart that shows the number of students in dropout factories in 
2008, 2.25 million, dropped down considerably in 2011. And the 
number of those school districts known as dropout factories 
dropped from 1,746 to 1,400 in 2011, again showing great 
progress.
    So I want to ask you, Mr. Secretary, looking at the 
Republican party's Paul Ryan proposed budget would most likely 
result in significant cuts to federal education programs that I 
am talking about. Question is, what impact is sequestration 
having on disadvantaged children and youth, and can you discuss 
the effects of this Ryan budget on President Obama's college 
completion goals?
    Secretary Duncan. And let me just--I will address that 
directly, I just want to go back to while we are very pleased 
to have 700,000 fewer children enrolled in quote-unquote 
``dropout factories,'' the fact is, we still have about 1.5 
million young people in dropout factories. So this is not, you 
know, ``mission accomplished.'' This is not ``we are there 
yet.''
    We have to get better faster. We can't, you know, get that 
rate down to zero fast enough--that number down to zero. And so 
we have a lot of hard work ahead of us.
    So we need to invest. We need to not invest in the status 
quo and in vision of reform, but any time you have a budget 
that would see $2.5 billion taken away from poor children, 
Title I money, $228 million taken away Impact Aid, children 
from military families, children on Native American 
reservations, we talked about over $2 billion cut in IDEA 
programs, $4 billion cut in Pell Grants--you know, we are 
trying to get more young people going on to college, not less--
it is devastating. And again, we just cut off our nose to spite 
our face. I just don't understand.
    Let me be really, really clear: our competitors--our 
international competitors--Japan, India, China, Singapore--they 
are not managing their education strategy by a sequester. That 
is not how they are doing this.
    They are investing, they are innovating, they are putting 
more money in. South Korea has increased its investment over 
the past decade by about a third. They know what it takes to 
get good jobs to come to their country and stay.
    I just worry that we are poorly serving our nation's 
children and our nation's economy if we fail to invest and fail 
to give our children an opportunity to compete in a global 
marketplace. The world has fundamentally changed and we keep 
acting like we are in an era that has been gone for, you know, 
30, 40, 50 years.
    Mr. Hinojosa. Secretary, I would like to hear your views on 
H.R. 1911, the Republican bill that would make college more 
expensive and out of reach. In particular, how does this 
proposal affect students of color?
    Secretary Duncan. So again, I think and I hope--maybe I am 
wrong--I desperately hope, fervently hope that we could all 
agree that our goal should be to lead the world in college 
graduation rates again. That is the right thing for young 
people, right thing for the country, right thing for our 
country's economy.
    I talked earlier in my testimony about the return on 
investment of a college degree of being about 15.2 percent a 
year. That is a huge return on investment. The long-term 
benefits are indisputable.
    So anything that makes college less accessible, less 
affordable, more distant for first-generation college goers, we 
do ourselves a grave disservice.
    Mr. Hinojosa. Thank you, Mr. Secretary.
    I yield back.
    Chairman Kline. Gentleman yields back.
    Dr. Roe?
    Mr. Roe. I thank the Chairman for yielding.
    Thank you, Mr. Secretary, for being here.
    Before I start, I have got a special guest today, Christina 
Everett from Tennessee, who is a foster youth shadow day, so 
she is my shadow.
    Christina, would you stand up and be recognized here to 
this group? Thank you for being here.
    I also want to send my sympathy. Two years ago my district 
had a terrible tornado and I understand exactly what those 
folks are going through right--it is indescribable what you see 
on television compared to what is actually there on the ground.
    So, Mr. Secretary, I share your enthusiasm for education. 
The week before the election I got tired of talking to adults 
and I went to seven schools and talked to young people--
elementary schools up to middle schools. That is the future of 
the country and I agree with what most of my colleagues on both 
sides of the aisle have said.
    I do want to get some reality. A year ago we were in--the 
Chairman and I were in India, along with Dr. Foxx, and in India 
we went to the department of education. They have a million 
schools in India; 700,000 of them don't have electricity.
    When you compare that, I think most people can't comprehend 
that you would have a school without electric power but those 
are the facts. We were there just a year ago. So it is a 
different standard.
    I want to go to the early childhood and what studies--and 
certainly it sounds intuitively like if you spend more money 
there you will ultimately, down the road, get a better outcome. 
What studies are you citing? Because I have looked at this 
very----
    Secretary Duncan. There are many, many studies, and we can 
get you a whole series of studies, but the one I cited 
specifically here, and there are others, is the preschool 
project that Dr. Heckman studied for--it has been a 
longitudinal study for more than 4 decades and approaching the 
5th----
    Mr. Roe. That is what I wanted to know. Let's go over that 
study.
    That study--those two that are--that are quoted--that the 
President quoted--rests on two academic studies: and I may be 
pronouncing this wrong, but Abecedarian study----
    Secretary Duncan. Yes.
    Mr. Roe [continuing]. And the Perry study. These are 4-and 
5-decade studies. These studies actually started in 1972 and 
with 111 infants in North Carolina, and the Perry Project 
started in 1962 with 123 poor children and their families in 
Ypsilanti, Michigan.
    And what it showed was--we have mentioned the $7--the 
studies cost between $16,000 and $41,000 per child in current 
dollars, and also, the money was spent on very intensive 
interventions--home visits, parent counseling, nutrition, 
health care. I mean, it was incredibly complicated. And that is 
what we are basing this on, these two decades-old studies that 
were only about 150 people total.
    Secretary Duncan. No. Those are important studies; they are 
by no means the only ones, and we will get you all this data, 
Congressman Roe. But recent short-term studies in Tulsa, 
Oklahoma, which has done a great job, preschool led to gains of 
6 to 7 months in literacy skills and 4 months in math skills, 
particularly high jumps for Hispanic students.
    Very recent study coming out of Boston, preschools led to 
7-month gains in literacy and math and significant gains in 
basic cognitive skills like inhibition and attention----
    Mr. Roe. Well, I will get those. And I did want to tell you 
that I had to peel this onion back pretty far, and let's look 
at the Head Start program----
    Secretary Duncan. And just quickly, some interesting 
studies coming out of Tennessee that talk about the benefits. I 
want to make sure you are aware of those.
    Mr. Roe. I am very aware of those.
    Secretary Duncan. Okay.
    Mr. Roe. In December of last year the HHS released a very 
comprehensive Head Start data, which took years--346-page 
study, and it said that the Head Start, several states and 
those who didn't through the third grade. Some got in; some did 
not.
    There were no measurable differences between two groups 
across 47 outcome measures. In other words, the Head Start 
impact was no better than just a random--how do you explain 
that?
    Secretary Duncan. Yes. So again, it is really important you 
look at the details of the study. And, Congressman Roe, what 
that study did is looked at children who had access to Head 
Start, not who actually attended Head Start, and 20 percent of 
the children in that study actually didn't attend. So it is 
very important that we have rigorous----
    Mr. Roe. But if you did or didn't, you didn't turn any 
different. It wouldn't matter.
    Secretary Duncan. No. Again, you had children who were in 
that study who were part of the Head Start cohort, 20 percent 
of whom didn't attend. So again, happy to sit down with you and 
sort of walk through, you know, the facts. It is important this 
be high-quality----
    Mr. Roe. The group that didn't attend did just the same as 
the group that did, whether they dropped out or not.
    Secretary Duncan. No. Again, the cohort----
    Mr. Roe. We can discuss. A couple things I want to--I will 
get over is I do want to work with you with--and I am very 
committed to this--is the number of dropout factories. I think 
that is a travesty in this country. And we should concentrate 
on those 1,400 schools where those children are being failed 
today.
    And secondly, I want to work with you on the Pell Grant 
program, where we invest that money more wisely. I would be 
willing to look at a higher number if we knew what the outcomes 
would be. In other words, get it to the students who really are 
effectively using it, because a lot of my community colleges 
that I talk to, they see kids who get the grant drop out and 
then basically it is lost and wasted. I want to see that money 
invested in kids who are being successful.
    Chairman Kline. Gentleman's time has expired.
    Mrs. McCarthy?
    Mrs. McCarthy. Thank you, Mr. Chairman.
    And welcome again, Secretary Duncan.
    I just want to go back on--in September of 2011 the 
department offered states the opportunity to waive the 
requirement of providing supplemental education service, SES, 
to students despite assurances proposed in the waivers, like in 
my home state of New York, that it will not shrug off 
responsibilities to provide support services to students and 
give districts the opportunity to still offer SES. I am 
concerned with the post-waiver realities.
    I know you have a lot of data, but could you tell me what 
the criteria the department is using to evaluate state 
compliance with its commitment to ensure critical services that 
are being delivered to the students?
    Secretary Duncan. Yes, well again, at the end of the day, 
while we have approved 37 states' plans--plans are important--I 
want to look at outcomes for children, and so are those 
achievement gaps being closed? Are children who have been 
disadvantaged, you know, improving or not?
    Plans on paper tell you some things that are important. 
What is more important to me is what is actually happening to 
real students.
    Let me tell you why we did it. One of the things I really 
resented about Washington, quite frankly, when I led the 
Chicago Public Schools, was that despite the very limited 
funding coming from Washington, Washington tied my hands as to 
how I could spend that money. And I wanted to be held 
accountable for results, but I wanted the flexibility to spend 
that money as I saw fit.
    And I almost had to sue my current Department of Education 
when I was in Chicago for the right to tutor about 25,000 
children after school, and my Department of Education was 
telling me in Chicago I couldn't do that. That, to me, was 
absolutely crazy. It was backwards.
    And so with limited dollars, with education being 
underfunded, we thought it was very important not to dictate to 
districts and to superintendents and to school boards that you 
have to use 20 percent of your Title I money around SES, and we 
are going to hold you accountable for results.
    They are good providers. Use them. Have them grow. Do some 
things yourselves. But to say you have to spend money in this 
way, that prices are fixed, just simply didn't make sense.
    So again, my fundamental thinking about this is to hold 
people accountable to a high bar, be tight on goals, but be 
loose on means--give people flexibility in terms of how they 
hit that higher bar. That is why we provided flexibility.
    Mrs. McCarthy. Well, I don't mind the flexibility. What I 
mind is, are we making sure that the students are getting the 
programs that they want, and how do we know that they--the 
states are doing that?
    Secretary Duncan. Yes. So again, we will monitor their 
plans. And again, but to be very clear, beyond monitoring 
plans, we will have ongoing checks here, we will have a renewal 
process. But I want to look at, is student achievements 
improving?
    Mrs. McCarthy. Have you seen any information coming in 
since 2011?
    Secretary Duncan. Yes. It is very early. Again, you--I saw 
some data. I saw graduation rates are up, dropout factories are 
down.
    So there is early data, but again, we need to be looking at 
it state by state, and I will look at 50 states and who is 
moving the needle faster, create a little healthy competition 
there.
    Mrs. McCarthy. And I agree with that, you know, because I 
am looking at the--certainly the dropout data, which is one of 
the biggest factors that, you know, many of us care about, 
because once we get those kids that drop out very rarely do 
they ever come back into the system, and those are the kids 
that, unfortunately, sometimes end up in prison.
    So those are the factors that I have, that we have the 
opportunity to reach these kids and we have an opportunity to 
change their lives, and I just want to make sure that the 
states and the local districts flexibility are using it, 
especially the underserved schools, because that is who we are 
really targeting.
    Secretary Duncan. Just one other added point on the--I 
think, again, all of us, I think, have to be united in getting 
that dropout rate down to zero. A lot of students leave high 
school not because it is too hard but it is too easy, it is 
boring for them. And one of the things in the President's 
budget proposal is a $300 million request to redesign high 
schools to focus both on college and careers and more hands-on, 
engaged learning and relevance to the workforce.
    I have been in a couple high schools, including one in New 
York recently, that did an amazing job of students seeing that 
bridge between what they are doing in the classroom and what is 
going on in the real community. For far too many kids that is a 
huge divide and they feel they are wasting their time, so we 
want to really invest in states and districts that are serious 
about helping students understand how, what I am learning in 
class is relevant to the jobs in my community.
    Mrs. McCarthy. Absolutely. We have a BOCES program out on 
Long Island. It is absolutely fabulous working with students. 
Anyone that would meet these students, certainly they are 
college material, but this is not what they choose. So they--a 
lot of them do go on to college, and I think that is important. 
Not every student wants to go to college.
    Secretary Duncan. And to be really clear, because I think 
what other countries do which I don't like--some countries 
track students: you are on the college track or career. I never 
want to do that. To me it has got to be both-and, not either-
or.
    And to your point, let students figure out what they want 
to do with their lives at different points. We need to give 
them options, not limit those opportunities.
    Mrs. McCarthy. Thank you.
    I yield back.
    Chairman Kline. I thank the gentlelady.
    Mr. Walberg?
    Mr. Walberg. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here.
    Last week I had the opportunity to meet with more than a 
dozen college and university presidents from my district and 
surrounding districts to discuss primarily the issue of the 
high cost of tuition, high cost of higher education, and 
ultimately, then, the cost to students with, as we have 
discussed here numerous times, the cost of loan debt. We know 
that the Department of Education requires these colleges and 
universities to collect a great deal of information and then to 
report that information to the Department. That level of 
reporting, according to them, continues to grow.
    And so I would ask, Mr. Secretary, since the--it ultimately 
comes back to the student paying the freight for all that goes 
on education, including excessive reporting, if that be the 
case. Has anyone in your Department looked at the financial 
impact of all of this record-keeping and what it is costing not 
only the universities and colleges but the students?
    Secretary Duncan. Yes. No, that is a great question. We 
look at that very closely, and I would encourage you--I do this 
all the time when I meet with college presidents--where we have 
regulations that are redundant or burdensome or, you know, 
compliance-orientated, not adding any value, please let me 
personally know that very directly, and those are the kinds of 
things we don't want to continue to impose on folks.
    And so where it is helpful, you know, where it is useful 
information, we want to do that. But where there is unneeded 
burden there, please hold me personally accountable for 
challenging that.
    So dollars are scarce. We don't want to waste time. We 
don't want to waste resources. We want them focused on 
increasing completion rates, not on paperwork that doesn't make 
sense, so----
    Mr. Walberg. I would be glad to do that. Appreciate that 
offer and I will share that, certainly, but----
    Secretary Duncan. It is hard----
    Mr. Walberg [continuing]. Do you have any illustrations of 
what you are doing right now to reduce some of that?
    Secretary Duncan. We can walk through a series of things. 
My challenge is, often when I ask this question I don't get 
back concrete, specific to-dos, and so again, the more specific 
you can be the--you know, this piece of data or this whatever--
we are asking it three times or doing it in a wrong way. So the 
more concrete you can be, that would be helpful.
    A bigger issue is obviously this idea of college costs. And 
frankly, we can reduce paperwork; that is not the driver of 
college costs there.
    We have done a lot with FAFSA simplification to make it 
easier for folks to apply for financial aid. Part of the 
President's proposal is a Race to the Top for higher education 
that would incentivize three things: incentivize states to 
continue to invest--this has to be about shared responsibility; 
incentivize universities to keep down their own costs--some are 
doing it really well, others, frankly, aren't; and to 
incentivize universities to build cultures not just around 
access but around completion. The goal can't be to go to 
college; the goal has to be to help people graduate the back 
end.
    So we want to be a partner and that is what--you know, part 
of what we are proposing to Congress.
    Mr. Walberg. Let me go on to Pell, since we talked--
mentioned FAFSA and the programs to help students with tuition 
costs. I recently heard from several financial aid officers in 
my district that they are concerned about fraud in the Pell 
Grant program. This isn't new to you information, I am certain.
    Either people are enrolling in community colleges simply to 
get access to student aid dollars with no intention of ever 
trying to complete an academic program or they are fraudulently 
enrolling to simply take the money and run. Can you point to 
some specific actions that this administration has done to 
clamp down on fraud within the Pell Grant programs?
    Secretary Duncan. So fraud rings are a real concern and it 
is real money out there, so I have a list of 10. I won't read 
them all to you, but in October 2011 we issued a ``dear 
colleague'' letter to the school community addressing the 
findings that came from the OIG. We have established an anti-
fraud ring task force, chaired by Jeff Baker, to address the 
issues raised in that report.
    We have created a mailbox and a call line that folks have 
information there. We are developing a process for schools to 
review and flag unusual enrollment activities that lead to, you 
know, often are early indicators of potential fraud rings.
    I can go through a series of things. So we take this very, 
very seriously. If there are additional ideas or actions we 
should be taking, happy to consider----
    Mr. Walberg. Is there any move to tie FAFSA reporting to 
the IRS records, the tax records, so that we don't have 
redundancies, we don't have mistakes--unintentional or 
intentional fraud in the applications?
    Secretary Duncan. Yes. So the IRS can pre-populate those 
things. So that is a piece of it but it goes beyond that.
    Mr. Walberg. Well, I would hope that we would get to ways 
that we can really reduce the subjectivity of reporting and 
make sure that students, parents, and otherwise know that what 
they give is accurate information.
    Secretary Duncan. We will share with you and your staff 
what we are doing, and if you have suggestions on how--ways we 
can do it better, I would be very happy to hear those.
    Mr. Walberg. Thank you.
    I yield back.
    Chairman Kline. Thank the gentleman.
    Mr. Grijalva?
    Mr. Grijalva. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being here.
    I have some pre-K initiative questions. Very, very happy to 
see that in the budget. I don't know how many times we have to 
go over study after study that the sooner you get these babies 
ready the better they are going to do and the outcomes are 
going to be better. And so I appreciate the President's and 
your initiative on that.
    Earlier question, just for my clarification, maybe 
something you can answer now or certainly provide the committee 
information on: the regulatory question around gainful 
employment--looking at that outcome. Is it possible to provide 
the committee--and as I understand, it was inclusive but there 
was a section that dealt--the reaction at least that I 
received, and maybe it was unusual, from the for-profit 
colleges relative to that regulation.
    What is the percentage of federal funds that go into for-
profits versus the student enrollment versus the outcome? 
Because I believe that if not today, certainly that information 
would be important for the committee because this question 
keeps coming up.
    Secretary Duncan. Yes. I don't have those exact numbers in 
front of me. The percent of money over time has gone up 
significantly to the for-profits.
    And let me be really clear: I am not anti-for-profit, where 
for-profits are helping young people or 58-year-olds gain 
skills to get them real jobs and a real living wage, we want to 
see them grow and prosper.
    Where for-profits or other folks are putting people in a 
worse financial situation than when they started and using 
taxpayer money to do that, we think that is a poor use of 
taxpayer resources.
    Mr. Grijalva. And I agree. Because if the mantra is the tax 
dollar and the waste thereof, then certainly that information 
would be important to the committee.
    What happens with Head Start, Mr. Secretary, once the Pre-K 
initiative is fully implemented, given the cuts that are coming 
and given the re-competition, which I thought was necessary and 
proper in some of the instances where those agencies weren't 
working well? What happens to Head Start?
    Secretary Duncan. We have a great, great partnership with 
Kathleen Sebelius, who runs HHS. She is a good friend. We, you 
know, travel all the time together.
    To be really clear, this is a 0 to 5 initiative. Again, 
this is a goal to try and end achievement gaps and stop playing 
catch up and stop admiring the problem. So over time HHS would 
focus on the 0 to 3 space--more home visiting, and again, 
working with those struggling families to help those parents 
gain the skills they need, focus on Head Start and Early Head 
Start, and then over time the transition of 4-year-olds would 
be into the pre-K program.
    But really, it is a 0 to 5. And the goal, again, I have 
just got to reiterate, the average--the average child coming 
from a disadvantaged background starts kindergarten at 5 years 
old 12 to 14 months behind.
    That should be untenable to all of us here. That has been 
true for far too long, and the goal is to level the playing 
field, to have young children start at the same starting line 
at 5-year-olds in kindergarten. It is as simple as that.
    If I could add one more thing that is really important from 
the research--research, part of the benefits are academic--
clearly, you know, language and literacy and math skills--but a 
big part of these benefits that these long-term studies are 
showing are what is called non-cognitive skills--the ability to 
sit in a room like this and to participate, the ability to have 
resilience and grit. And those non-cognitive skills play huge 
dividends, and you guys couldn't be as successful as you are if 
you didn't have those.
    Not every child grows up in a family or household that has 
those kinds of opportunities. So it is the academic dividend 
benefit plus the non-cognitive side that seems to have these 
lifetime, huge impacts on young people's ability to enter into 
middle class and be successful.
    Mr. Grijalva. Two quick questions: In the pre-K initiative, 
the English learner component, is--I read it quickly, but I 
don't know, is it--does that include it in the initiative so 
that we are--we make sure that all families and kids are going 
to be able to fully participate?
    Secretary Duncan. Absolutely. The young kids who are, you 
know, low-income and then sort of work your way up, and where 
states wanted to do more, in the middle class--middle-income 
families they would have the right to do that.
    And if states were doing a lot in the pre-K space they 
could use our resources to do more full-day kindergarten, which 
we think is the right step. So we are going to provide lots of 
flexibility to partner with states, build upon their strengths, 
and fill in gaps where there are holes.
    Mr. Grijalva. And related, one of the first hits, in terms 
of sequestration, was in Indian Country, and in particular, in 
education on the reservation and in those nations. As you see 
that question and as you see it in reflection in the 
President's budget to address what I think was not only a 
shortfall but----
    Secretary Duncan. Well, there is a desperate----
    Chairman Kline. Excuse me. The gentleman's time has 
expired. We are trying to give all members a chance.
    Dr. Heck?
    Mr. Heck. Thank you, Mr. Chair.
    Thanks to Mr. Duncan.
    Good to see you again. Appreciate you taking time to be 
here.
    Just first a quick observation on the average increase of 
graduation rates, and going back to what Dr. Foxx had said 
earlier about statistics, I think it is great that the average 
rate is 78 percent, and as you mentioned, on track to hit 90 
percent, but I think we have got to be real careful about using 
the average because that always implies a high and a low, and 
we know that the top five largest school districts, of which 
mine is number five in the Clark County school district, the 
average of those five come out to 69 percent. So maybe we would 
better start using the median or something a little bit 
different to make sure we are tracking all school districts.
    One issue very important to me is the Carl D. Perkins 
Career and Technical Education Act, and I have always been a 
strong supporter of CTE ever since my days in the state house 
and maintain the philosophy that high school seniors should be 
college or career ready when they graduate. We have talked a 
lot here today about access and affordability of college, but 
not everyone is meant to go to college. And those who choose to 
forego college in order to enter the workforce directly after 
high school need options and necessary training.
    I appreciate the administration's proposal to reauthorize 
the Perkins Career and Technical Education Act but do have some 
concerns with this proposal to designate $100 million to create 
a new competitive CTE innovation fund. As I know you are aware, 
CTE funding is allocated based on demographics, and because CTE 
is discretionary funding there can be fluctuations from year to 
year so the hold harmless provision was put into place back in 
1998 to prevent states from ever receiving less than they were 
allocated in 1998.
    And it obviously was established to prevent states from 
being disproportionately affected. And while well-intentioned, 
states like my home state of Nevada have had significant 
population growth since 1998, and if we use the 1998 hold 
harmless provision in combination with the diversion of $100 
million for the innovation fund, it puts Nevada at a 
significant disadvantage that can potentially result in a 
funding reduction of 42 percent.
    With that in mind, did the Department of Education take 
these potentially devastating cuts to states like Nevada, which 
would receive a 42 percent cut, into account? Should this 
proposal go into effect? And does the Department have a 
proposal to revise the funding formula allocation for CTE 
funding to provide for a more equitable distribution of funds 
amongst the states?
    Secretary Duncan. So happy to work through those specific 
issues with you and the governor and, you know, we put out a 
blueprint for Perkins reauthorization, as you said. Happy to 
get comments, feedback from anybody. Our goal is not to 
devastate any state, clearly, so I don't know all the details 
and intricacies there, but more than happy to look at it.
    But I think the fundamental point we are trying to make is, 
again, as a country I think we did better--whether you call it 
Voc-Ed, or CTE, honestly, as a country I think we did this 
better 20 or 30 or 40 years ago and have gotten away from this. 
We want to see this become much more part of the norm of what 
high schools are offering. We want to spur innovation, spur 
creativity.
    Some places are doing it; other places it doesn't exist. 
Some high schools are still training people for jobs that 
disappeared a couple decades ago. We want to find ways to 
increase the access to quality CTE programs at the high school 
and even having some feeder programs in the middle school.
    So that is the goal. Happy to talk through any details with 
you and your team.
    Mr. Heck. Certainly, and I appreciate your efforts to work 
together to try to prevent significant cuts to CTE funding by 
some states. In addition, states like Arizona, Florida, North 
Carolina also would see significant cuts based on the hold 
harmless from 1998 as we move forward, so I appreciate your 
help in trying to avoid that.
    And I yield back, Mr. Chair.
    Secretary Duncan. Happy to look at it. Thank you, sir.
    Chairman Kline. Gentleman yields back.
    Mr. Bishop?
    Mr. Bishop. Thank you very much, Mr. Chairman.
    Mr. Secretary, thank you for being here and thank you for 
your leadership.
    I am very worried about the federal campus-based student 
financial aid programs. I think sequestration has had, as you 
know, a significant impact on programs like college Work Study 
and SEOG. A 22 percent cut in appropriations will do even 
further damage to those programs.
    And I am particularly worried about Perkins. As you know, 
current law has the Perkins Loan fund returning to the Treasury 
October 1, 2015, so that means we have two more academic years 
left of a program we have had since I think 1958.
    The Department has made a proposal--or the President has 
made a proposal--a couple of years now to dramatically expand 
Perkins, basically turn it into campus-based direct lending, to 
help, you know, significant numbers of additional students. But 
let's be honest. I don't think that program has much of a 
chance in this Congress. In fact, I think probably the acting 
commissioner of the IRS has a better shot of being named 
Government Man of the Year than we have getting that program 
through.
    So I guess my question is, does the Department have a plan 
B? I mean, I would--that is $1.4 billion worth of student 
financial aid that could disappear overnight unless we are able 
to either keep the program as it currently exists or extend it 
in some form or fashion.
    Secretary Duncan. Obviously your long history makes you an 
absolute expert in this area, so I would love to further the 
conversations beyond today. But sort of stepping back big 
picture, we have a huge challenge of keeping college 
affordable--and not just in disadvantaged communities, in the 
middle class. And whether I go to the grocery store or to the 
dry cleaners or fly on an airplane, everywhere I go people are 
telling me that the cost of college is crushing them.
    And so the question is, again, as a country, do we want to 
have the best-educated workforce in the world or do we want to 
continue to be 12th or 14th or 16th? And so looking at all of 
these things in a holistic way, figuring out how we make 
college more affordable has to be our collective goal.
    Our proposal on the table is a race to the top for higher 
education. Played significantly in the early childhood space; 
think we have had dramatic impact on K-12. Haven't played in 
higher ed.
    We at the federal level, as you know so well, can't do it 
by ourselves. It has to be shared responsibility.
    But if we can get states to invest and reinvest--40 states 
recently have cut funding for higher education, Republican and 
Democratic, so 80 percent of the country. There is no upside 
there. Not enough universities are using technology to reduce 
costs and to increase, you know, graduation rates and pass 
rates.
    So we want to try and put some significant carrots out 
there to incentivize different behavior. So I would love to get 
your insight as to, you know, our--whether our proposal makes 
sense or better ideas you have.
    But the debt burden is staggering. The cost is far too 
high. And none of this is good for young people, their 
families, or for the country.
    Mr. Bishop. Yes. Well, thank you for that. I would be 
delighted to work with you and your colleagues in the 
Department.
    I guess I want to emphasize the importance of the campus-
based financial aid programs. As someone who used to administer 
those programs, they are often the difference between whether a 
student enters or doesn't enter, and most often, a difference--
makes the difference between whether a student stays.
    Secretary Duncan. Whether they stay or whether they have to 
leave. Absolutely.
    Mr. Bishop. Second question quickly: You talked about a 
culture of completion. Again, I am in full agreement, and there 
is a lot of pieces to that.
    But one piece that I would hope we could resurrect is 
cooperative education. Cooperative education is, as you know--
you and I have talked about this; this is something that I 
think is one of the best things that colleges can do for 
students, but it also--it correlates very positively with 
completion.
    Secretary Duncan. Yes.
    Mr. Bishop. So students not only stay enrolled, they finish 
and then they have a--they generally--70 percent of them have a 
job waiting for them. So if we want a culture of completion, if 
we want students to enter a job market that isn't as hospitable 
as we would like it to be, cooperative education really can be 
a part of that solution. And I would hope that we could move 
towards resurrecting the federal role in cooperative education.
    Secretary Duncan. Again, thank you. Please push us to think 
about that and other thoughts and ideas you have on this topic, 
which again, I think is an issue of national security and 
economic competitiveness. We need to be bold; we need to be 
thoughtful; and we need to work together.
    Mr. Bishop. Thank you, Mr. Secretary.
    I yield back, Mr. Chairman.
    Chairman Kline. Gentleman yields back.
    Mr. Salmon?
    Mr. Salmon. Thank you, Mr. Chairman.
    Secretary Duncan, the proposed budget contains several new 
and costly programs to address college affordability and 
innovation, including $1 billion for the Race to the Top, $260 
million for the first in the world, reformed campus-based aid 
to prevent the expiration of Perkins Loans.
    What is the Department doing to remove existing regulatory 
barriers that prevent colleges from sharing innovative 
practices and reducing costs before spending billions more on 
new, untested programs?
    More specifically, I know you are aware your department 
implemented new incentive compensation regulations. In doing 
so, you eliminated the so-called ``safe harbors'' that had been 
put in place over multiple administrations. In response to 
advocates from the Democrat side of the aisle, your department 
maintained one of the safe harbors by expressly permitting 
revenue-sharing between colleges and third parties to innovate 
and share expertise.
    But instead of applying the regulation fairly, your 
department prohibited any entity or institution that is 
affiliated with another institution of higher education from 
participating in this market. I have a letter sent to you by 
Chairman Kline and Ranking Miller--Ranking Member Miller saying 
that you were looking to fix this unfair rule in the negotiated 
rulemaking process. However, it is not on the agenda of issues 
to be addressed and the Federal Register notice states that the 
process will take years.
    There is bipartisan support to fix this problem 
immediately--to expand innovation, help colleges reduce costs 
for students--something you say you care deeply about. Simple, 
straightforward legislative language has been drafted that 
keeps in place ample protections. Would you commit today to 
support these--this legislation and work constructively with 
those of us on both sides of the aisle?
    Secretary Duncan. Happy to look at that, and if there is 
bipartisan support for anything these days we ought to look at 
that very seriously.
    Mr. Salmon. Well, I appreciate your commitment to do so.
    One final question dealing with Common Core standards. I 
have always been kind of a states' rights guy and I believe 
that the top quality of education really is affected at the 
state level, and more specifically, by the local school 
districts.
    I don't see anything in the Constitution that really deals 
with education. In fact, I think conversely, the 10th Amendment 
gives the states the lion's share of the responsibility if not 
all the share of the responsibility for education.
    Also, the General Education--Educational Provisions Act 
prohibits the federal government from directing education. 
Elementary and Secondary Education Act--ESEA--prohibits the 
establishment of a national curriculum.
    So I have a lot of constituents on the education front that 
are very, very concerned about a federal takeover of 
curriculum. They see it as a bribe to the states and a bait-
and-switch. It is a promise of money that if the states go 
along with this federal curriculum then they will get the 
money.
    Many states have taken the bait, but a lot of the students 
and parents are really not very happy with this. What are we 
doing to make sure that we maintain local control of 
curriculum?
    Secretary Duncan. Well, sir, facts matter, and as a matter 
of fact, we are prohibited by law from touching curriculum. 
Never have, never will, no intent. So it is not a black 
helicopter ploy and we are not trying to get inside people's 
minds and brains, which I have been reading about.
    Let me be really clear: what many states on a voluntary 
basis have done, including your state, is raise standards, so 
you want our children competing to high standards 
internationally benchmarked, so again, they are not at a 
disadvantage relative to children in India and China and 
Singapore. How you teach to those higher standards--the 
curriculum--is absolutely controlled at the local level. Always 
has been, always will be. You have never heard me once in 4-
whatever years talk about that.
    So let's not get caught in the hysteria and the drama. 
Let's look at the facts. If Arizona wants to raise their 
standards tomorrow, Arizona wants to lower their standards 
tomorrow, you have the absolute right to do that. I would 
encourage you not to----
    Mr. Salmon. Thank you, Secretary Duncan.
    Secretary Duncan. I would encourage you not to lower your 
standards----
    Mr. Salmon. I don't believe anybody is caught up in any 
kind of hysteria whatsoever. I just had a straightforward 
question and you have answered it. I appreciate it. You have 
said that the federal government has no intention of getting 
involved in directing what the states do for curriculum and I 
appreciate it.
    I yield back the balance of my time.
    Secretary Duncan. And to be very clear, we are prohibited 
by law from doing that.
    Chairman Kline. Gentleman yields back.
    Ms. Fudge?
    Ms. Fudge. Thank you very much, Mr. Chairman.
    And I, too, have a guest with me today. Jenny Corvath, from 
Dayton, Ohio, who is one of our foster care advocates. Thank 
you for being here.
    And thank you, Mr. Secretary, for your testimony, and thank 
you for your focus on children, which sometimes, I think, gets 
lost in this very committee.
    Before I begin, though, I do want to make a comment about 
the Smart Solutions piece that they talked to you about 
earlier. Let me just for the record say that it is not smart 
and it is not a solution. All it does is just--it is just 
another vote that is going to try to balance the budget or make 
cuts on the backs of those who can least afford it.
    And for those who are concerned about IDEA, I know that I 
don't think I have a colleague on the other side who voted for 
the stimulus. Even though it is not enough, there were 
significant resources in the stimulus bill for IDEA----
    Secretary Duncan. $11.3 billion. I think the----
    Ms. Fudge. $11.3 billion.
    Secretary Duncan [continuing]. The largest increase, I 
think, in the history--it has to be--in the history of IDEA.
    Ms. Fudge. Thank you so much.
    Now let me just ask you a couple of questions. Recently I 
worked with the National Urban League to introduce H.R. 1343, 
the Project Ready STEM Act, and I see that in your budget your 
are asking for an additional or--$150 million for STEM 
innovation. Now, if these funds are appropriated, what emphasis 
will the Department place on ensuring that a portion of these 
funds are specifically used to expose low-income and minority 
youth to STEM education?
    Secretary Duncan. And thanks. We haven't talked enough 
about STEM today so I really appreciate you raising it. So this 
is clearly an area of tremendous interest amongst young people. 
This is clearly an area where so many of the jobs of today and, 
even more importantly, the jobs of the future are going to be 
in the STEM fields, so equipping our students with the skills 
to successfully compete for those jobs is hugely important.
    This is not just a Department of Education initiative. The 
President has really challenged us as an administration to do 
more in this area. He is personally very passionate about this.
    There have been lots of disparate programs across the 
administration--many really good ones, but maybe the collective 
impact hasn't been as strong as it should be. So he has asked 
us to lead an effort to help bring together all the resources 
behind STEM to make sure that we are doing a couple different 
things: one, that we are creating a master teacher core of STEM 
teachers who can be, you know, mentors and leaders and help 
keep those teachers in the field and help grow the next 
generation of STEM teachers. We need about another 100,000 STEM 
teachers going forward.
    And then we want to invest in communities, again, whether 
they be inner city or, you know, wherever they might be, where 
there are real strong public-private partnerships around STEM, 
where the business community, where the higher education, where 
K-12 are all working together, so these STEM innovation hubs to 
help increase that pipeline and make sure that real training is 
leading to real jobs. So there is a chance, I think, to do some 
really creative things, and we, as we always do, we will ensure 
that disadvantaged communities have access to these kinds of 
opportunities.
    Ms. Fudge. Thank you very much.
    And secondly, I will soon be introducing the Promoting 
Health for Youth Skills In Classroom And Life, it means 
PHYSICAL Act. This bill recognizes physical and health 
education as core subjects, ensuring that schools have the 
option to use Title I and Title II funds for physical and 
health education programs.
    We know about the epidemic of obesity in this country, and 
I am just curious, as this committee moves toward the 
reauthorization of ESEA, what are your thoughts on recognizing 
physical and health education as core subjects through the 
reauthorization process?
    Secretary Duncan. You and I were both--and I think both 
still trying to be athletes, and the chance to run around, to 
burn off a little steam, I always say that for me to do well 
academically, I needed those opportunities. And that is--what 
is true for me I think is true for so many young children 
today.
    So my wife is a former phys ed teacher, and whatever we can 
do to make sure, whether it is P.E., I am a huge proponent of 
recess--we need more recess. These have to be a normal part of 
the day.
    And again, we have all these false fights in education, and 
somehow some people believe if you are doing more of that you 
are hurting yourself academically. It is quite the opposite. 
When students are active physically it helps their brain 
development. There is all kinds of research. They can sit and 
concentrate and not be, you know, jumping up and down.
    And so whatever we can do to bring P.E. back into the norm, 
whatever we can do to encourage recess--the nutrition part of 
this is really important, but so are those healthy skills, 
healthy lifestyles that if we instill them early in life will 
stay with students hopefully for a lifetime. I can't overstate 
how important that is--a chance to run around, a chance to 
play, a chance to be part of a team.
    That should just be a normal, healthy part of growing up, 
as it was for so many of us, and unfortunately, it is not 
always today. Again, I think there is a real--a tremendous 
downside to not having that there.
    Ms. Fudge. Thank you very much.
    Mr. Chairman, I yield back.
    Chairman Kline. Gentlelady yields back.
    Mr. Messer?
    Mr. Messer. Thank you, Mr. Secretary. First, I just want to 
thank you for your work. We agree on many topics, disagree on 
some, but I know of no one who questions your commitment to the 
young people of this country and their efforts to have better 
opportunities, and so thank you.
    Get three quick topics. There is a lot to cover, but 
hopefully we can touch on all three.
    First, want to make you aware, if you are not--I think you 
may well be, but of the Improving Postsecondary Education Data 
for Students Act, the bill that passed out of this committee in 
a bipartisan way last week. It is not the sexiest of topics but 
it is designed to make sure that families, as they go through 
this most important investment of higher education, have good 
data.
    There is a lot of data out there. I think our hope is that 
we can try to streamline that data and also improve reporting 
burdens for colleges, and any comments or thoughts you have 
on----
    Secretary Duncan. Yes. I don't know all the details of the 
bill, but I love the direction you are trying to go and just 
having greater transparency. We haven't talked about this, 
having young people and families choose the right colleges for 
them for the right reasons and have full information--what is a 
grant, what is a loan, what are graduation rates. These things 
can be almost impenetrable for far too many families, and 
whatever we can do to add transparency, to add clarity.
    Not to go on too long, but we have the best system of 
higher education in the world unquestionably, but we are--the 
marketplace for choosing the right school is wildly 
inefficient. Too many people choose the wrong school for the 
wrong reasons. So whatever we can do--and again, anything 
bipartisan I would love to work on----
    Mr. Messer. Yes, well great. We were glad to work with the 
folks in this committee, certainly committed to working with 
you and hopefully can----
    Secretary Duncan. And it doesn't have to be sexy. If it 
makes a difference for young people, if it helps those 
graduation rates climb, that is really important. So don't 
discount the importance of what you are doing.
    Mr. Messer. Oh, no. Information matters, no question about 
it.
    The second question: several different questioners 
addressed Pell Grants. I am a product of Pell Grants. I think 
it is an incredibly important program. I am glad we have got 
more students who have access to that.
    As you are probably well aware, we spent $36 billion on 
that last year, hundreds of billions over a period of years. 
And yet, it is my understanding we don't really report or 
measure as a society what the outcomes of Pell Grants are. What 
are your thoughts on whether we ought to report and measure 
those outcomes?
    Secretary Duncan. Yes. Yes. Absolutely. Again, part of the 
transparency we want to look at is what are universities do to, 
again, not just have cultures of access but around cultures of 
completion, and looking at apples versus apples, Pell Grant 
recipients versus non-Pell Grant recipients, seeing which 
universities are taking this part of the mission seriously and 
not. We want to provide maximum transparency there, and so it 
is the right investment.
    It is one of the things I am most proud of, frankly, that 
we have gone from about 6 million Pell recipients to about 9.4 
million, but there is still tremendous unmet need.
    And then again, I just have to reiterate, the proposed 
budget coming out of the House Approps would be--would lead to 
a reduction in access to Pell Grants by over $4 billion. How is 
that in our nation's best interest?
    Mr. Messer. Yes. And again, the point I would make--sounds 
like you agree--is when you start to measure what the outcomes 
are it gives you the opportunity to shape policy.
    Secretary Duncan. Yes. Absolutely. Absolutely.
    Mr. Messer. The third issue--and understandably, these are 
tight budget times. I have heard a lot of comments today about 
tight budgets in both K-12 and in higher education, as well.
    I want to raise a concern with you that was raised to me by 
my local school superintendent. Shelbyville Central School 
System has about 3,800 students. Our annual budget is about $40 
million. About $3.6 million of that is provided by federal 
funding.
    And the superintendent has raised the issue of the impact 
of Obamacare on our local budget. As you are probably well 
aware, the provisions of Obamacare require health insurance for 
any employee that works more than 30 hours a week. And the 
question is with certain teacher's aides and other employees, 
they now will be required to cover them with Obamacare or cut 
back the hours for these teacher's aides and have impacts on 
student learning.
    The local superintendent has estimated it is about an 
$800,000 impact on this school, about a 2 percent cut on a $40 
billion--$40 million budget. But if you look at the federal 
impact of 3.6 in funding, it is about a 20 percent reduction in 
the federal benefit.
    I would like to hear, one, are you aware of this issue? And 
secondly, would you support the idea of exempting K-12 and 
higher education institutions from the requirements of 
Obamacare?
    Secretary Duncan. I don't know those specific details. What 
I would be happy to do is if you give me his name and number, 
happy to reach out. We actually have a team in our department 
working on implementation of the Affordable Care Act.
    Happy to talk to him, hear his concerns, see if there is 
anything we can do to be helpful. So if you could leave me his 
contact information we will follow up directly.
    Mr. Messer. Okay. Thank you. Appreciate your help.
    Chairman Kline. Gentleman yields back.
    Ms. Bonamici?
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    Mr. Secretary, thank you for your testimony and your years 
of service and your obvious dedication to the students.
    When I review the blueprint for reform and the budget 
summary I see a lot of discussion about accountability and 
assessment. Reminds me of the time a few years ago--your 
comment about P.E.--when I toured an elementary school in my 
district and they bragged about how great their third grade 
test scores were and I said, ``How did you do that?'' They 
said, ``We cut P.E.'' Big concern.
    And I see competitive funding proposals. And, Mr. 
Secretary, in your testimony you say budgets entail value 
choices, and what I am looking for is a value choice that 
furthers development of innovative, creative critical thinkers.
    You talk about long-term vision, about global 
competitiveness, and frankly, I don't think businesses and 
employers are looking for good test-takers. They are looking 
for people who are inquisitive, collaborative, good 
communicators, people who are creative and innovative, who 
aren't afraid to take risks. And that comes from using both 
halves of the brain, from a well-rounded education that 
especially includes the arts, music, P.E.
    We need to stimulate intellectual curiosity. You talked 
about the kids who drop out because they are bored.
    So in the proposed budget there is $75 million to develop 
and expand innovative practices for improving teaching and 
learning and the arts, health education, foreign languages, 
civics and government, history, geography, environmental 
education, economics and financial literacy, and other 
subjects. $75 million.
    So in light of the fact that a lot of students today will 
be doing jobs that don't exist now and making things that 
haven't been invested yet, what policies will lead to schools 
that really cultivate creative, entrepreneurial students--
excuse me--and how can $75 million possibly be adequate for 
something that is so critical?
    Secretary Duncan. Yes. No, it is a huge, important topic, 
and I appreciate you raising it. So that is obviously a funding 
source. I would argue to you that when you see states raising 
standards, college and career ready and critical thinking 
skills and all those things that you need to be successful with 
higher standards, that is a part of what you are getting at.
    But please challenge me and challenge our team. I can't 
overstate how all those things you talked about need to be the 
norm for public schools, not the exception--and to be really 
clear, not the norm just of high school, but for first and 
second and third and fourth graders who then start to get these 
skills and self esteem and develop a passion or a love for 
something beyond just the traditional academic subjects.
    So there are lots of other ways we are--STEM we, you know, 
haven't talked enough about, huge proposals around STEM, which 
gets to much of what you are asking. But please challenge us to 
do more.
    The other thing that is so important in the waiver 
process--what I hated about No Child Left Behind was there was 
a fixation just on an absolute test score, and I do want to 
look at growth and gain and how much students are improving. 
Obviously if you have a, you know, great third grade test score 
and a 50 percent dropout rate you are not helping kids.
    And what you have seen in many states through the waiver 
process is real creativity here, moving away from a focus on 
one test score, looking at graduation rates; looking at 
reductions in dropouts rates; looking at college-going rates; 
looking at what percent of students are staying in college--
perseverance; looking at what percent of kids are going to 
college but need remedial classes, meaning they are really not 
ready. So just in our fundamental accountability system we have 
tried to move away from a focus just on a test score to a more 
holistic, comprehensive set of indicators that, if you are 
going to reduce dropout rates, I think you have to attack all 
the things you are talking about and engage kids in different 
ways.
    So we are trying to change the incentive structure. Happy 
to share what different states are doing. But those kinds of 
opportunities and learning experiences need to be the norm, not 
the exception. If you have thoughts on how we can do that 
better I would love to hear them.
    Ms. Bonamici. Thank you. Well, I am going to be introducing 
a resolution supporting the ASCD's Whole Child Initiative, also 
working on the STEM to STEAM Caucus.
    Secretary Duncan. Yes.
    Ms. Bonamici. There is a lot of great brain research on how 
the arts and design actually improve and enhance the STEM 
disciplines.
    And in my remaining time I just want to make a comment 
about the importance of early childhood education. Last weekend 
I had the opportunity to hear Dr. Donna Beegle in Oregon, who 
spoke about rising up out of poverty.
    She is the only person in her family who has not been 
incarcerated. She came from very poor circumstances. Tough, 
tough life growing up.
    And I kept waiting for her to say how she broke out of this 
cycle of poverty, and finally she did at the end. It was a Head 
Start teacher who got her on the right path. And what she is 
doing now compared to where she came from was really 
remarkable.
    And it is anecdotal but it just goes to support the 
importance of that early learning. It is a great investment in 
early childhood education. If we want to get to the issues of 
income and equality we give every child an equal opportunity 
for that early learning.
    So thank you and the administration for that priority. I 
really----
    Secretary Duncan. Very quickly, Mr. Chairman, if I can, 
just on the arts piece quickly, another place where we are 
emphasizing the arts is in the turnaround space, these 
chronically underperforming schools. We have a set of schools 
that are using the arts curriculum to turn it around.
    I was literally in one yesterday morning here in D.C., 
Savoy Elementary. I would encourage you to go visit--pretty 
amazing. I saw 3-and 4-year-olds working on an opera. That is 
not what I was doing when I was 3 and 4.
    Ms. Bonamici. And Orchard Garden--as well.
    Secretary Duncan. That principal was with us yesterday. He 
is amazing.
    So that is another funding stream where you have seen some 
really creative work to engage kids in their own learning.
    Ms. Bonamici. Thank you.
    Chairman Kline. Gentlelady's time has expired, and the 
world is a much better place because I never worked on opera.
    Mr. Rokita?
    Secretary Duncan. You and I both.
    Mr. Rokita. Yes. I thank the Chairman for not working on 
opera.
    Secretary Duncan, thanks for being here today. I would say 
that I just saw the Joffrey Ballet, though, in Chicago a few 
weeks ago. I know you are probably familiar with that, and 
these kids in Chicago who are learning that, as well, is 
absolutely fascinating--one of the most athletic experiences I 
have witnessed, actually. Never thought I would see that in a 
ballet.
    Talk to me a little bit about the waiver process. How much 
time do you spend--or did you spend--personally involved in 
that process, reviewing it, deciding who gets a waiver and who 
doesn't?
    Secretary Duncan. Not a lot of personal time state by 
state--some. Where there were tough calls staff would bring 
that, you know, when things were on the fence. But where there 
is a pretty clear yes or no I spent less time. I spent a lot of 
personal time trying to think about what were the tenets, what 
was the philosophy behind the waivers, what we were trying to 
accomplish, what we were trying to move away from----
    Mr. Rokita. Okay. I appreciate that.
    And the reason for my question is because in--you and I 
have had now two personal phone calls, and--which I, as I said 
on the phone calls and I will say on the record here, I greatly 
appreciate it. And regarding this administration, you are one 
of the ones that I think I can really communicate with and 
reason with and have a relationship with, and I appreciate that 
and I thank you for it.
    But now I am seeing some letters that are coming, and I 
doubt you are writing them, that are--but--you know, if you are 
the head of an organization you are creating the culture. We 
are finding that out all around this country now in different 
places, especially the federal government. And the letters 
don't track our personal phone conversations in this respect.
    Back in 2012 we asked to see your schedule for the purpose 
of determining--because we have oversight over No Child Left 
Behind and the waivers circumvent No Child Left Behind. You can 
argue if that is good or bad; that is not the point of my 
question. But we have a duty here to see what the Department is 
spending its time on and what you are spending your time on 
with regard to these waivers which, again, circumvent federal 
law.
    And we couldn't--we got an objection to that looking at 
your schedule. Then I see a letter that--where you sent a 
letter to the states that received waivers asking about the 
implementation process, and that is the letter we sent. Then 
you felt the need to send a letter instructing the states so 
the Department has been transparent and assumed every other 
state would check with their legal counsel in responding to 
our--this committee's letter just like you did when you 
responded to our letter.
    Now there are different ways--you can't read in the context 
of letters, but you could take that to mean it was almost like 
a subtle threat. ``Check with your counsel. Don't have to 
respond to these people here until you have checked with your 
counsel and determined what is appropriate or not.'' Can you 
clear that up?
    Secretary Duncan. Yes, absolutely, on both. So to be clear, 
I don't--wasn't even aware of the request of my schedule, but I 
think it would be hard to look at my schedule and know what 
time is spent----
    Mr. Rokita. It was a June 25, 2012 letter, and I will 
reintroduce it to the record----
    [The information follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                    ------                                
    Secretary Duncan. That is fine.
    Mr. Rokita [continuing]. Without objection.
    Secretary Duncan. Happy to give information that is 
helpful. My point is, looking at my schedule would not--it is a 
difficult way to figure out how much time, whether it is in 
meetings, doesn't know what the title of the meeting is, how 
much time at night I am spending thinking about this. To me it 
seems like a ham-handed way, frankly, to try and get at the 
issue.
    If you have a direct question, happy to answer any 
question----
    Mr. Rokita. Well, okay. Would you send your schedule and 
then add to it a narrative about, ``Hey, I am spending this''--
round figures--``this kind of time, this much time.''
    Secretary Duncan. It would be a wild guess. We have spent a 
lot of time--lot of time thinking about it.
    Mr. Rokita. Could you try to re-answer the question then 
and give a date certain when you give us an answer?
    Secretary Duncan. Happy to look again. Don't know the 
details. Not quite sure----
    Mr. Rokita. How much time do you need?
    Secretary Duncan. Not quite sure what the intent of the 
question, what is the----
    Mr. Rokita. Anything you can ask, you can look at your 
schedule yourself, refresh your memory, and just give us a 
ballpark figure how much personal time you have spent or are 
spending on these waivers.
    Secretary Duncan. Okay. And again, just to be clear, I have 
spent a lot of time thinking about the philosophy behind them; 
I have spent less time on individual waivers, just to be real 
clear.
    Mr. Rokita. What date might we expect something?
    Secretary Duncan. I will check. Not sure. Happy to look----
    Mr. Rokita. You can't give us a date?
    Secretary Duncan. No, I can't----
    Mr. Rokita. A month?
    Secretary Duncan. I can't give you a date because it is a--
--
    Mr. Rokita. Two months?
    Secretary Duncan [continuing]. It is an odd request, sir. I 
don't quite understand----
    Mr. Rokita. It shouldn't be that odd of a request to 
understand, when we are circumventing federal law, how much 
time you are personally spending on these decisions. I don't 
think that is a crazy question.
    Secretary Duncan. It is the first time I have had that 
question in 4-something years, so that is why I am a little 
taken aback. Never had that question before in any--in any 
setting.
    Mr. Rokita. Okay, well it was asked first in--in June of 
2012. Since we are running out of time, let me move on. On----
    Secretary Duncan. I mean, the other one, just to be clear, 
obviously zero intent to do it ever. Frankly, states were a 
little worried when they received that letter and we have good 
relationships with virtually every state and we were trying to 
say, sort of, actually to mitigate, to--to knock down the 
worry. And the Chairman asked me lots of questions; I try and 
give lots of answers. He asked me some questions a couple days 
ago; got him some answers today. And we have a good, trusting 
relationship.
    But frankly, it was scary to some states and we were trying 
to----
    Mr. Rokita. I appreciate that.
    On Common Core--I know you got one question there today on 
that--the standard is for--for you to adopt college- and 
career-ready standards that are common to a significant number 
of states. That is the language.
    Is there any other standard other than Common Core that 
would suffice in order----
    Chairman Kline. The gentleman's time is expired----
    Secretary Duncan. No, no, no. This is an important one. I 
am sorry. Just really quickly, because it is----
    Chairman Kline. I am sorry. The gentleman's time has 
expired. We will take it for the record, or I will give you a 
chance later, Mr. Secretary.
    Secretary Duncan. I need to take the chance because that is 
factually incorrect, so I need to be really clear.
    Chairman Kline. Noted.
    Ms. Wilson?
    Ms. Wilson of Florida. Thank you, Mr. Chair.
    At a time when Congress is disinvesting from children I 
want to thank you, Mr. Secretary, and thank the President for 
putting forward a budget proposal that upholds our sacred 
obligation to educate our young people. In particular, I 
applaud your focus on funding early education at a time when 
sequester cuts are decimating programs like Head Start and 
research in STEM education.
    Robust funding for education is essential for ensuring that 
young people can live out their fullest potential and that this 
nation's economy can reach its long-term potential. The earlier 
we begin teaching our children in the field of science, 
technology,--engineering, and math, I know it works. I served 
as an educational coordinator for Head Start for 3 years. We 
must start early.
    I have one foster care advocate from Florida here today, 
Otto Phillips.
    Raise your hand, Otto.
    Research over the last decade shows how important rates of 
teacher qualification and retention are in ensuring that pre-K 
is high-quality and produces all the benefits for children we 
want to see. The findings of the National Institutes for 
Education Research demonstrate that low levels of compensation 
diminish the ability to retain the highly trained workforce 
necessary for high-quality early childhood education.
    How can the Administration ensure that the workforce is 
adequately compensated and positioned to provide high-quality 
education that produces the desired benefits for children, 
especially in beginning science curiosity and math? They 
already are energized with technology by 2 years old; they can 
use the iPad. So what do you see as what the administration can 
do to hold that interest?
    Secretary Duncan. Two-and three-year-olds are sometimes 
ahead of us, quite frankly----
    Ms. Wilson of Florida. Yes.
    Secretary Duncan [continuing]. And we have to start early, 
so it is a great point.
    And again, this is a--I just want to--people to understand, 
this is a $75 billion proposal. This is--eclipses anything else 
we have done. This is a really, really big deal. We think it is 
an absolute game-changer.
    And part of those resources can be used to better 
compensate teachers who will work in this space. Part of it can 
be to make sure they have the training and the professional 
development to work in these areas.
    We have to upgrade--you know, again, to raise quality, the 
only way to do that is to raise the quality in the training of 
folks who actually participate in these programs, so there is a 
huge emphasis there. Happy to follow up.
    But if this is just sort of--you know, mediocre 
programming, that doesn't change kids' lives. It has to be 
about high quality, and the adults teaching those children 
every single day, their skills, their capacity, their ability 
to continue to learn and adjust as the world changes is hugely, 
hugely important to making sure we hit that quality benchmark.
    Ms. Wilson of Florida. Okay. According to the Committee for 
Education Funding, the Republican budget--the Ryan budget--
would cut Head Start by an additional $900 million on top of 
the $401 million in cuts from the sequester. What impact do you 
think this would have on our efforts to ensure all children 
have the skills they need to succeed in school?
    Secretary Duncan. So I appreciate the question. And again, 
the facts are today--today--less than 3 in 10 young people have 
access to high-quality pre-K. Less than 3 in 10 4-year-olds. To 
me that is crazy.
    So if we were to cut--and my numbers are the cut to Head 
Start would be about $1.4 billion--there would be, you know, 
thousands, tens of thousands fewer children would have the 
chance to go. And what we are already seeing right now due to 
sequester, right now you see Head Start programs ending early 
this year because they are running out of money due to 
sequester. And so a week or 2 weeks are being knocked off the 
end of these schedules.
    Children need longer days, longer weeks, longer years, not 
less time. So again, why we do these things that are not in our 
nation's interest, I just--it is mind-boggling to me. It is 
just so disappointing.
    Ms. Wilson of Florida. What do you think the administration 
can do to fill that gap, to make sure--do we plan to do any 
marketing or outreach to people to----
    Secretary Duncan. I am traveling the country talking to 
everyone--and again, outside of Washington, frankly, there is a 
huge amount of interest. Republican and Democratic governors 
are investing very--you know, Michigan, you know, Nevada, 
Mississippi, Alabama--I can go right down the list of 
Republican Governors who are putting huge resources behind 
this.
    So I think we can build an interesting coalition of 
bipartisan Governors; of CEOs who understand the return on 
investment--that is a language they get; of parents and Head 
Start communities; of the faith-based community; of military 
generals who like this; of states attorneys and police chiefs 
who know the reductions in crime and support this. So I think 
we can build a really interesting coalition. I was in Michigan 
recently with Governor Snyder, a Republican governor, who was 
very supportive--went to Ypsilanti, which is one of the, you 
know, sort of birthplaces of this work.
    So for all the dysfunction here in Washington, in the real 
world there is a real chance, I think, to try and move this 
thing, and I am going to spend a huge amount of my time and 
energy traveling the country trying to build that coalition.
    Ms. Wilson of Florida. Thank you.
    Chairman Kline. Gentlelady's time has expired.
    Mr. Guthrie?
    Mr. Guthrie. Okay. Thank you, Mr. Chairman.
    Hey, thank you, Mr. Secretary, for coming here today. And I 
was on the committee my first 2 years here, left, and just came 
back, and part of the stuff I enjoyed was how we worked 
together and tried to work together, and your honesty in these 
meetings and moving forward.
    The one thing, I was ranking member on Higher Ed at the 
time, so I got involved in the gainful employment part of--that 
was being discussed, and one thing that was bipartisan--I think 
it was kind of the--well, what was bipartisan was an agreement 
that we don't want kids graduating from school with too much 
debt, and whether they are at a for-profit school or whatever. 
I think the frustrating part was how that process went forward. 
I was in some meetings that was bipartisan, and some of the 
more frustrating people were actually not of my party in the 
meeting with members of your organization, or the Department, 
and I just want to talk about the--you had an I.G. report about 
that.
    And then just last week, as you know, there was a report in 
the Wall Street Journal that a member of the Department is 
being investigated for leaking information around the Program 
Integrity. And then your own I.G. I think was asked by some--to 
come in and had some issues with the negotiated rulemaking 
process and I know they gave recommendations.
    Can you kind of go through those--how this, maybe, 
particular individual affects where you are going forward with 
this?
    Secretary Duncan. Doesn't affect it whatsoever. As you 
know, the I.G. is taking a thorough look there. We have a great 
relationship with the I.G. and I will, you know, obviously 
suspend, you know, judgment or opinion until that report comes 
back from the I.G.
    Mr. Guthrie. So you don't have any recommendations as 
your--there are no recommendations yet from the I.G. to 
implement from this report?
    Secretary Duncan. No. That is an ongoing investigation.
    Mr. Guthrie. Okay, so moving forward with this----
    Secretary Duncan. Yes.
    Mr. Guthrie. Okay. Well, thank you.
    I yield back.
    Chairman Kline. Gentleman yields back.
    Mr. Tierney?
    Mr. Tierney. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary. Good to see you.
    First I just have to make a comment on the IDEA issue. I go 
over and over this. You know and I know, and most people know, 
that this was a judicial mandate back in the 1970s that 
communities educate all children fairly on that and that the 
communities, states went apoplectic, the federal government 
stepped in with IDEA, which states could voluntarily accept or 
not on that basis.
    We authorized a certain amount of money per child's 
additional education needed on that but we never appropriated 
that full amount. But during the Gingrich years, when it was 
one of the 10 points, the Republicans on that--Ron Kind and I 
in this committee put forward an amendment to fully fund it and 
not a single one of our Republican friends voted for it on that 
basis, so I am really glad to hear----
    Mr. Miller. Will the gentleman yield?
    Mr. Tierney. Yes, I will.
    Mr. Miller. Yes. I think there were 320 members of Congress 
that signed a petition to the Committee to fully authorize it.
    Mr. Tierney. And so I am really glad to hear Mr. Kline and 
others here saying that they are behind more money for IDEA. I 
just contrast that with the fact that the Republican budget, as 
you mentioned, cuts it by over $2 billion. So it is--we will 
put the rhetoric and the reality on a plane here.
    We also hear people talking about not wanting to give the 
burden on our children for a deficit, but they apparently don't 
have the same concern about loading up student debt on them 
going forward. You know, given the fact that the Congressional 
Budget Office projects interest rate savings for students and 
parents between 2013 and 2018 to be over $30 billion of savings 
under the administration's proposal and a loss of at least $1 
billion under the Republican proposal that passed in this 
committee recently, can I assume that you don't favor that 
Republican proposal, you do favor the Administration's plan?
    Secretary Duncan. Obviously I favor the Administration's 
proposal. What I am interested in, ideally, is a long-term fix. 
Again, I just want us to take on tough issues, take them on, 
take them on for the long haul, and then frankly, move to all 
the other issues. There is so much, and I don't want to just 
keep coming back year after year on the same stuff.
    So that is my strong, strong personal preference.
    Mr. Tierney. So I would hope that we would think about 
keeping that 3.4 percent rate for the subsidized Stafford 
Loans, and in the context of the Higher Education 
reauthorization bill, look at that long-range proposal. That 
sound about right?
    Secretary Duncan. I would love to figure out a long-term 
fix sooner than later.
    Mr. Tierney. Yes. All right.
    Tell me a little bit about the Administration's feelings on 
the income-based repayment plan and its importance in this 
process.
    Secretary Duncan. Yes. Income-based repayment, I think, is 
an extraordinarily important opportunity. It is a terrible 
name; we need to come up with a better name. People don't 
understand it well enough and we have got to market it better.
    But the chance to have--the short answer, to have 
people's--their repayments indexed to their income, so if you 
are making more money, a higher-paying job you pay more, if you 
are making less you pay less. That makes absolute sense. And 
the big bang for me that after 10 years of public service--
being a teacher, other things--all that debt is forgiven, it is 
a remarkable opportunity.
    So I think it is a great chance. We need to do a better job 
in terms of marketing, getting the word, out, naming. There are 
more young people out there who would take advantage who 
haven't yet, but I am thrilled that we were able to get that 
done.
    Mr. Tierney. Let me also ask you a question--any number of 
millions of students that have graduated are out there carrying 
around a tremendous burden of debt on student loans at some 
really high interest rates. What are the administration's 
thoughts on getting some relief for that population?
    Secretary Duncan. Yes. So happy to have, you know, 
conversation on any of these areas, whether it is folks coming 
out of school now, whether it is prospective students, or 
whether it is students who are, you know, 25, 30, 35 who are 
already out.
    Again, let's work. Let's work in a bipartisan way. The fact 
that that debt surpasses $1 trillion, there is no upside there, 
and the more we think about these things, again, 
comprehensively in a bipartisan way, welcome that conversation.
    Mr. Tierney. Well, our economists tell us that we could put 
$17 billion back in the economy, which would be a tremendous 
boost on that, and help all these families out on that, and I 
hope that we will look on that direction.
    Secretary Duncan. You worry about people trying to buy a 
home, other things like that----
    Mr. Tierney. To buy a home, try to buy a car, you know, try 
to start a life. We always joke, but it is not really that 
funny, most families, try to get them out of their parents' 
house, you know, and move forward on that. So----
    Secretary Duncan. That is real. That is real.
    Mr. Tierney. We have a bill in the House here; Senators 
Reid and Durbin have one in the Senate that addresses that and 
a long-term fix, and we will look forward to working with you 
on that.
    I yield back.
    Chairman Kline. Gentleman yields back.
    Dr. DesJarlais?
    Mr. DesJarlais. Thank you, Mr. Chairman.
    Welcome, Secretary.
    I continue to be concerned about the runaway cost of the 
Pell Grant program. Just last week we received the figures from 
the CBO demonstrating that we are looking at another $5 billion 
funding gap for fiscal year 2015, and we must stop infusing the 
one-time mandatory funds into this program.
    A minute ago you talked about the fact that we now have 9 
million participants in the Pell Grant program. That is up from 
5 million just 6 years ago. The cost 6 years ago was about $12 
billion; now the cost is $42 billion. So yes, we have not quite 
doubled the number of participants, but we have tripled the 
cost.
    What reforms do you have available or what ideas do you 
have to help lower this cost? And I will just mention, Dr. Roe, 
I know, before I got here asked you a question and I don't 
think you got to answer about community college students who 
are dropping out after receiving Pell Grant money. What can we 
do to bring the cost down rather than just keep infusing more 
money?
    Secretary Duncan. Yes. I am going to be really clear. I 
don't think the goal should be to bring the cost down. I think 
this is the best investment we can make, and you are sitting 
next to a colleague who talked about Pell Grants enabling him 
to go to college----
    Mr. DesJarlais. I am another one.
    Secretary Duncan. So the real question should be, how do we 
make it more efficient, not to bring down the cost down? I 
would like to invest more to make higher education more 
affordable. And so where there are thoughtful ways that we can 
make it more efficient to make sure the program isn't being 
abused somehow or that people aren't taking the money and doing 
other things, let's have that conversation. Let's think about 
that.
    But I would like to see more--to be really clear, I would 
like to see more young people have access to Pell Grants, not 
less.
    Mr. DesJarlais. Okay. Well, I think being more efficient 
and infusing more money is not necessarily mutually exclusive. 
I agree that we need to be more efficient. That is my whole 
point.
    How do we be more efficient? Because right now the answer 
is just to throw more money at it. Again, we have doubled the 
number of students but we have tripled the cost.
    We can't sustain that path or everyone is going to lose out 
on this. He won't have it; I won't have it; our kids won't have 
it.
    Secretary Duncan. No, I understand. So I have talked a lot 
about a proposal to have a Race to the Top for higher 
education.
    So at the end of the day what we have to do is we have to 
find ways to get states to invest. Forty states have cut their 
investment to higher education, Republican and Democrat. That 
is not good for the country.
    We have to get universities to become more efficient--often 
use technology in different ways to get better results--and 
encourage universities to build cultures not just around access 
but around completion. And we think if we could provide some 
incentives--not sticks but carrots--get states and universities 
to behave differently, that might help on the runaway cost of 
higher ed, might bring down the cost for young people and 
make----
    Mr. DesJarlais. Well, I would agree, there is no incentive 
for universities and colleges right now to be more efficient 
because we just continue to throw more money at them.
    Secretary Duncan. Well, it is actually not true. Again, 40 
states have cut funding to higher education, so universities 
are out there hurting. And for me it is not about pointing 
fingers, laying blame; it is about shared responsibility.
    What is the appropriate federal role? What is the role of 
states? What is the role of universities? We need to not blame 
each other and sort of come together and see if we behave in a 
more productive way. That is what we are trying to----
    Mr. DesJarlais. I will look forward to working with you. 
And again, I also, like my colleague, Mr. Rokita, appreciate 
your willingness to reach out. I think you are the only 
Secretary that came to my office and sat down and met with me 
and I think that we all appreciate that very much. So I do look 
forward to working on these issues with you----
    Secretary Duncan. Put that on my time sheet for----
    Mr. DesJarlais. Yes. Yes, we will add that----
    [Laughter.]
    It was a good hour, at least, wasn't it?
    Secretary Duncan. Billable hour.
    Mr. DesJarlais. But with that, let me yield the balance of 
my time to Mr. Rokita.
    Chairman Kline. Gentleman yields----
    Mr. Rokita. Thank you, Mr. Chairman. I appreciate that.
    How much time do we have left, Mr. Chairman, in this----
    Chairman Kline. One minute and 24 seconds.
    Mr. Rokita. Perfect. Thank you very much.
    I would like to pick up the conversation where we left off, 
Secretary. And we have enough time now. And I apologize. I was 
rushed in asking the question; maybe you were rushed in hearing 
it, but let me set it up again.
    In your proposed budget request, as I understand it, you 
are saying that you are going to limit funding to states that 
have adopted, quote--``college and career ready standards that 
are common to a significant number of states.'' So is there any 
set of standards other than Common Core that fit that quote?
    Secretary Duncan. Yes, absolutely. To be clear, in 
everything----
    Mr. Rokita. Which ones?
    Secretary Duncan. Just to be really clear, in everything we 
have done, including the waiver package, our goal is not 
common, our goal is high standards--college and career ready. 
And we have provided waivers to states like Virginia and states 
like Minnesota that are not a part of the Common Core----
    Mr. Rokita. It is not really a waiver question. This is 
funding to states----
    Secretary Duncan. In everything we do, let me just be 
really clear, obviously we----
    Mr. Rokita. The Assessment Grant program, excuse me.
    Secretary Duncan. So which, just to be really clear----
    Mr. Rokita. Are the Assessment Grant program--and the 
recent proposal in the budget was about the Assessment Grant 
program, to limit those funds to states that have adopted 
college and career ready standards?
    Secretary Duncan. Yes. Yes. So again, that is not common; 
it is high standards. In everything we have done--I am trying 
to be very, very clear--the goal is not common; the goal is 
high. And so we would not want to provide, you know----
    Mr. Rokita. But from a practical standpoint, is there 
anything but Common Core?
    Secretary Duncan. Yes. Yes. Virginia, Minnesota are two 
examples.
    Mr. Rokita. Thank you. My time is expired.
    Chairman Kline. Thank the gentleman.
    Mr. Yarmuth?
    Mr. Yarmuth. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. And I would like to echo some of 
the comments. I don't know another person in government who 
shows as much passion for the people he serves as you do, and I 
appreciate that greatly.
    Scattered throughout the hearing have been kind of 
discussions of how some non-necessarily educational factors 
affect education, and the Affordable Care Act has already been 
raised once today. So I want to ask you how important--and if 
there is any way to quantify, and there probably isn't--how 
important the expansion of Medicaid services, Medicaid 
eligibility under ACA and the availability of expanded coverage 
is going to be to educational achievement.
    Secretary Duncan. Yes. I just think, again, there is a 
series of foundational things that, if we are serious about 
students begin academics and--academically successful they have 
to be in place.
    So students' physical needs need to be met, their health 
care needs. They need to be safe. Their dental needs need to be 
met. If they can't see the blackboard they need eyeglasses. 
They need to be safe to and from school.
    And so there is physical, there is social, and emotional 
needs. To me, I would say those are foundational.
    When we meet them, then let's talk about A.P. calculus and 
physics and, you know, going to college and those kinds of 
things. But where children have aching cavities, where they 
can't see the blackboard, where they have health issues--
diabetes, asthma--that aren't being addressed, it is pretty 
difficult to concentrate in class.
    Mr. Yarmuth. And there is no question that those failing to 
do that severely impedes academic achievement and ultimately, 
long-term success, is there?
    Secretary Duncan. No question. And I have worked in 
communities all my life where children didn't have those kinds 
of opportunities and the consequences--the loss of social 
potential, loss of human potential was pretty staggering. That 
is why I do what I do.
    Mr. Yarmuth. A related figure--issue, we talked about STEM 
education, and that seems to be a national goal to entice 
people into those areas. How much difficulty is it to entice 
people into STEM and to generate enthusiasm for them when at 
the other end the country is cutting funding for research so 
that the jobs that those people might fill don't seem 
particularly appealing?
    Secretary Duncan. Yes. No, that presents a real challenge, 
and not everyone agrees with me on this, but I think in areas 
like math and science, particularly in disadvantaged 
communities, be it inner city urban, or rural, or remote, or 
Native American reservations, I argue that we should pay math 
and science teachers more money. We have to find ways to 
compete with the private sector and to bring them in, again, 
particularly to help those kids that don't have those 
opportunities traditionally.
    We haven't talked a lot today about technology. I think 
technology can also help to be a real equalizer here and game-
changer. But this is where the world is going, and when our 
students don't have access to teachers who are comfortable and 
confident with the content in second and third and fourth 
grade, again, we limit--we put a cap on what they can 
accomplish.
    Mr. Yarmuth. I was going to get to technology. I was a 
sponsor back in the 110th Congress of Digital Promise and very 
supportive of that effort.
    I was in a middle school not too long ago in a very, very 
economically challenged area of my district and asked the 
principal if she could estimate how--what percentage of her 
students had access to the Internet at home.
    Secretary Duncan. Yes.
    Mr. Yarmuth. She said 10 percent.
    Secretary Duncan. Yes.
    Mr. Yarmuth. Is there anything that we can do on the 
federal level or on any level to try and correct that 
situation?
    Secretary Duncan. We have to, and I just appreciate your 
interest and leadership so much. And technology can either be 
this great equalizer of opportunity or, frankly, it can create 
a greater divide. You know, we know a lot about the digital 
divide.
    So I think the upside is so high and the downside is so low 
we have to take this on, but how we increase access, how we 
make sure, again, in rural areas where, you know, it is a tough 
issue sometimes, Native American reservations--how do we make 
sure children who traditionally have the least have a chance to 
play on a level playing field is hugely important.
    I think we should all challenge ourselves across, you know, 
the federal government, across agencies. We work very hard with 
the FCC. You know, we need to find ways to make sure that 
children who should be able to learn anything anytime anywhere 
24/7 have those chances.
    Mr. Yarmuth. Got a few seconds left. Just a quick question: 
What does the President's budget do in relation to literacy 
programs, and I know you are trying to reshape them? Could you 
address that?
    Secretary Duncan. Yes. I don't have the exact number in 
front of me but there is a significant investment there. And 
again, I--our hope is that where so many states are raising 
standards with a focus on being able to, you know, talk and 
express your ideas around complex issues--express yourself 
verbally and in writing--we hope that we can, over time, 
significantly improve the literacy rates in this country.
    Mr. Yarmuth. Okay. Thank you, Mr. Secretary.
    I yield back.
    Chairman Kline. Gentleman yields back.
    Mr. Polis?
    Mr. Polis. Thank you, Mr. Chair.
    First I do want to, in response to some of what Mr. Rokita 
was asking about, I want to acknowledge that many of us here, 
certainly myself included, feel whatever time you spent on the 
waiver process is time well spent. We appreciate that in the 
failure of this Congress to reauthorize, you used the process 
that was contemplated in No Child Left Behind rather than 
enforce criteria that education experts on the left and right 
agree is flawed. So thank you for whatever time was well spent. 
We appreciate it.
    I also want to compliment you for your focus in your 
opening remarks on early childhood education. Seldom do we see 
as good an investment in our future.
    Beyond the human factor, simply looking at the numbers, you 
cited the seven-to-one figure savings that have been 
demonstrated in lower special education costs, lower grade 
repetition rates, lower delinquency. The seven-to-one savings 
don't even take into account, if you will, the revenue side, 
meaning that investment in early childhood education leading to 
people having higher-income careers and paying greater taxes 
back to our country above and beyond the seven-to-one ratio.
    The question I have for you today is about charter schools. 
The President's proposal includes an increase from $255 million 
to $295 million in the Title V charter school program, the 
federal government's program to support financing and growth of 
quality charter schools across the country. The budget also 
expands the grants for the replication and expansion of high-
quality charter schools--already supported more than 335 high-
quality expansions.
    I want to thank you, first of all, for being a champion for 
expanding educational choice, both in charters as well as in 
district schools across the country.
    However, as you know, the supply of innovative, quality 
charter schools has not caught up with demand. Over 600,000 
students remain on charter school waiting lists, unable to 
attend the school of their choice, forced to attend a school 
that the parents perceive is inferior and frequently, according 
to objective criteria, is inferior.
    That is why I will soon reintroduce the All Students 
Achieving through Reform Act, the All-STAR Act, which will help 
enable and encourage new charter school startups, in addition 
to supporting the replication and expansion of high-quality 
charter schools. And of course, not all charter schools perform 
well, which is why my bill also includes stronger language 
around authorizing practices, including closing failing 
charters and more accountability for school performance.
    I want to ask you today, what about the federal charter 
school program do you believe has been the most effective in 
spurring the growth of high-quality charter schools and how 
would you propose incentivizing states to promote the growth of 
high-quality charter schools?
    Secretary Duncan. So first, I just want to thank you 
personally for your leadership on a whole host of education 
issues, and you think about this with a level of thoughtfulness 
and nuance and complexity that we desperately need, so I just 
appreciate the ongoing partnership and everything you bring to 
the table as we discuss these things.
    So I met with a number of high-performing charter groups--
CMOs--a month ago maybe, and it was uplifting. They have been 
able to dramatically expand the number of kids they are 
serving--exponential growth.
    Still a real need. A waiting list that you talked about, 
but in all candor they said they would not have been able to 
have the expansion they have had and the reach they have had in 
the time that they have--in the short amount of time was it not 
for our support, so I felt really good about that.
    Like you, there is nothing, to me, magic about charters. 
Good charters are part of the solution; bad charters are part 
of the problem.
    We talk about failing schools--5,000 around the country. 
About 200 of them are charter schools, and we have challenged 
them to, as you have, to close down and do some other things.
    So I think the question you can push me and my team on is, 
how do we continue to replicate faster high-quality? And to be 
really clear, for me that has got to be charter and district. 
And I think charters have actually been more nimble, more 
entrepreneurial than districts in replicating success.
    And I was recently at a----
    Mr. Polis. With my limited time, if you could also address 
how we can further incentivize states and districts that have 
not been friendly to charters to encourage charters?
    Secretary Duncan. So, I need to think about how we do a 
better job there I don't--I would give us probably a relatively 
low grade there, and putting the right carrots out there to 
have folks do that. There are some private foundations that are 
getting districts and charters, and for me, again, it is just 
totally the wrong fight.
    We have one common enemy and that is academic failure. And 
whatever we can do to attack that together and replicate 
success, we need to do that.
    Just quickly, I want to also encourage the districts to 
replicate their high-performing schools, and we have not seen 
enough creativity there. I want to challenge myself and my team 
to figure out how we incentivize that better.
    Mr. Polis. And when you look at accountability and looking 
at school turnarounds and would you look at charter schools and 
district schools the same way and encourage states and 
districts to do the same?
    Secretary Duncan. Absolutely. Again, for me, no 7-year-old 
knows whether they go to a charter or a district or a magnet or 
a gifted. Does my teacher care about me? Am I learning? Am I 
safe? Is my principal helping me? We just need more schools 
that look like that--more public schools that look like that.
    Mr. Polis. Thank you for your work.
    I yield back.
    Chairman Kline. Gentleman yields back.
    Mr. Courtney?
    Mr. Courtney. Thank you, Mr. Chairman.
    First of all, for the record, Ms. Foxx asked the question 
who said, ``Lies, damned lies, and statistics''? As any 
schoolchild in Connecticut knows, it was Mark Twain and he 
wrote it when he lived in Hartford, Connecticut. If only I 
could get Steven Spielberg to correct the mistake he made in 
the Connecticut delegation on the 13th Amendment in his movie, 
but that is another hearing.
    First of all, I want to thank you for your visits to 
Connecticut in the wake of Newtown. I know you are coming on 
Friday, but someday we are going to get you across the 
Connecticut River to Eastern Connecticut. But again, it means a 
lot to the people of our--my state.
    And your testimony, you know, on school safety, again, was 
eloquent in terms of the fact that, you know, when we talk 
about all these issues, if kids don't feel safe in schools the 
CDC numbers on mental illness with young children that came out 
a few--a couple days ago, I mean, this has got to be a focus. 
And again, Mr. Kline, to his credit, held a hearing on this 
topic and hopefully we can move that issue forward.
    But I wanted to just spend a minute--I was out of the room 
for a second because I was actually talking to the Head Start 
director in Norwich, Connecticut, who last Monday had a staff 
meeting announcing six layoffs of teachers driven by sequester. 
This is 60 families that are going to lose home-based Head 
Start services. They are going to go into--they have 520 kids 
all together in the program and they are going to start going 
into classroom slots next if we don't turn the poison off here.
    And, you know, again, looking at the budget that came out 
of the majority, which is below sequester levels, again, you 
know, all the talk this morning about early childhood and the 
benefit, you know, the reality out there right now is we are 
going backwards and we have got to address this issue of 
sequester. And I am sure you are getting these calls and this 
sort of anecdotal input but it is going to pick up speed, and I 
am--frankly, I am looking to you to help sort of use your 
platform to warn people about the damage that we are doing 
right now.
    Secretary Duncan. So push me. I mean, in the clips 
literally almost every day there are two or three or four 
articles in local communities around the country where the cuts 
are happening now.
    And so whatever I can do to raise the alarm and to talk 
about the reality of not just what is going to happen but what 
is happening right now, if I am not doing enough, push me. I am 
trying to go out there everywhere I can to talk about it and to 
shine a spotlight on it.
    And again, I hate to--you know, I think people here in 
Washington don't begin to understand the consequences of their 
actions. If they spent more time in the real world and out of 
here--how does anyone feel good about that? Is that why you 
guys came to Washington was to take away opportunities for poor 
kids to have a chance to get off to a good start in life? Is 
that what motivated you to enter public service? I don't 
believe it was.
    Mr. Courtney. Well again, 3-and 4-year-olds didn't cause 
the structural deficit that we are in right now and they 
shouldn't bear the burden.
    Secretary Duncan. Native American kids, the children of 
military families, families who are overseas, you know, 
literally giving their lives for us, and then we are going to 
give them a worse education and take away their counselors and 
social workers, which is happening right now? Families who 
deserve--you know, giving everything for us and we are going to 
deprive them? I don't get our values. I don't understand.
    Mr. Courtney. And so in any case, you know, this is 
something I really think, you know, resonates with the public 
when they see that kind of damage that is being done. I was at 
a chamber of commerce meeting last week and kind of shared that 
outcome, and the room--a groan went up in the room.
    So, you know, hopefully we can--again, sequester was not 
about having sequester go into effect; it was about forcing 
people to sit down and compromise. And Phil Gramm from Texas, 
who is the granddaddy of sequester, actually gave a speech in 
Washington, quote-unquote, where that is what he said was the 
purpose of it.
    Lastly, and I know I have just got a few--Mr. Tierney asked 
about, you know, extending the 3.4 percent rate and, you know I 
would just say as someone who has been pushing that is that, 
you know, we need a Higher Ed reauthorization bill. We need to 
have a comprehensive, long-term solution, which I think 
everybody agrees with. We are not getting there in 40 days, 
which is really July 1st and the ticking clock.
    And again, I think the President's proposal, using market-
based--to a point, I think, has something that people can work 
with. There are a lot of proposals on the other side. That is a 
good thing. That didn't exist a year ago----
    Secretary Duncan. Right. Right.
    Mr. Courtney [continuing]. When we were doing this issue.
    But frankly, we have got to make sure that kids who are 
making the decision now where to go to school have some 
confidence and horizon about what decisions they are making.
    Secretary Duncan. First of all on sequester, if there are 
things that I can do better to articulate the reality, please 
push me and my team to do that. That is part of our job and if 
we are not doing that effectively enough we want to hear that.
    Again, on this one, I know it is 40 days, but this one has 
some intellectual complexity but it is not that that hard. And 
again, I just with that--I think the expectations have gotten 
so low for Congress to get anything done.
    I just wish we could take an issue or two issues and just 
figure it out. And again, we will all compromise; we will all--
you know, no one will get exactly what they want. That is how 
this process is set up.
    But I would just love to get it done and I would love to 
get it done for the long haul and again, move on to all these 
other really hard issues--dropout rates, ESEA reauthorization, 
Higher Ed reauthorization. You know, there are so many other 
things we need to be spending time on; I don't want to keep 
coming back year after year on this.
    Mr. Courtney. Thank you, Mr. Secretary.
    Chairman Kline. Gentleman yields back.
    Before we say goodbye and thank you to the Secretary I want 
to yield to Mr. Miller for any closing remarks he might have.
    Mr. Miller. Thank you, Mr. Chairman.
    And, Mr. Secretary, again, thank you for your time. I agree 
with my colleagues here that the time you have spent on 
waivers, I think, is better spent than trying to get a 
bipartisan resolution out of this Congress, unfortunately, on 
ESEA.
    But I think members ought to understand that, you know, in 
the case of Common Core standards and assessments, this was a 
creation of the Governors; this wasn't a creation of the 
federal government. In fact, a number of people were surprised 
when the Governors came forward after many years of working and 
trying to think, how are they a worldwide competitive entity. 
To attract companies or economic activity they needed a better 
school system with better standards and better performance.
    And, you know, it is an important--you have allowed 
districts that really want to go to the future to go, not be 
held back by Congress' bickering back and forth. As I have said 
in my opening statement, I am concerned that they take 
everybody with them, they don't leave some people behind here, 
and that it--the hallmark of this law is the equity and the 
treatment and the opportunity for these students. Whether they 
succeed or not is somewhat, you know--we can't guarantee that, 
but we certainly can provide the opportunity to a first-class 
education and I think the waivers--and along with the common 
core.
    I mean, I am quite surprised at the response of my state, 
how positive it is--California has been reluctant on a lot of 
this--how positive they are now and the, you know, the Governor 
is seeking appropriations to help them bring this about. The 
response of teachers to training sessions and preparation 
sessions has just been dramatic across the state.
    So that is all very, very encouraging. But I just--the 
equity portion of it is very, very important.
    And I hope that we will be able to work out a long-term 
bipartisan support for student loan activity. We have got a 
very serious problem on our hands. I think there are new 
constructs that can be put together where, as you say, it is a 
shared responsibility.
    If the states continue to walk away from public support for 
public institutions we can't keep putting money into the top 
and they are taking it out the bottom, and that is sort of what 
they have been doing here.
    I know people are concerned about the growth in Pell Grant, 
but let's understand, there are a lot of people who never in 
their lives believed they would be eligible for a Pell Grant, 
but when they lost they job they lost their income and they had 
to go back to school. They found that to be very helpful to get 
a certificate, to get a training, to get an upgrade in their 
skills so that they would be ready as the recovery started to 
happen here. So they are not there by choice; they are there by 
circumstance, and that turned out to be a very expensive thing 
for the program, but obviously, some underpinnings for those 
families.
    So I just--I want to thank you for these projects that you 
have undertaken. Again, you heard it from my colleagues--you 
know, there was a group of people who have been saying that 
college isn't worth it. Oh, yes it is. Oh, yes it is. By every 
measure it is worth it.
    There is now a group of people saying early childhood 
education really isn't worth it. Oh, yes it is by almost every 
measure.
    And it is incredibly important. We know the difference 
between families in vocabulary acquisition. We know what--
that--the barriers to that child, their first encounter with 
the formal education system, whether it is the Head Start 
system or state-run program or kindergarten.
    There is a big difference in terms of acquisition and 
reading skills and the rest of that--in terms of colors and 
numbers. And these sound so basic, and yet so many children 
come to school without the--without those components.
    And, you know, I think we have gotten better at partnering 
up with parents in the involvement, in that education. 
Certainly in my area of the state it seems to have gone better. 
We realize we have got to transfer some of this.
    And some very exciting things are being done in some school 
district, engaging parents in that early childhood education 
experience, in that kindergarten experience, and bringing them 
through and helping the child transition.
    But again, if we are not going to build a first-class 
receptacle for the students that we are spending the money on--
the children we are spending the money on in early childhood 
education and development, if we are going to dump them into a 
substandard system it is not going to work. And so, you know, 
we have to do a lot of things at one time here to get this 
system up and running.
    And so I really just want to encourage the administration 
to continue to push on this. It is so important to the success 
of these young children in terms of their participation in the 
fullness of American society and fullness of the American 
economy and to help us hold on to a democracy in a very diverse 
country. We need their participation--their full, informed 
participation in American society.
    So thank you very much for spending this time with the 
committee.
    Chairman Kline. I, too, want to thank you, Mr. Secretary, 
for being with us today.
    A couple of things: It has been an extraordinary bipartisan 
support here in the Congress for a long time for Pell Grants. 
We are concerned about how much money is going in them and is 
it being spent not only wisely but is it being abused?
    And we certainly know there is anecdotal evidence that it 
is being abused. A student goes in, gets a Pell Grant, buys a 
car, never goes to school.
    So we would like to work with you and we would ask the 
Department to really look at that program to make sure that we 
are, in fact, helping not only kids but, as the Ranking Member 
said, sometimes it is people coming back. They may be 58. I 
forgot who used that number here, but that is still young to 
me, I know, but people are going to come back; they need access 
to those Pell Grants. We just want to make sure it is not being 
abused in a large scale, which sometimes we are getting reports 
that indicate that that might be the case.
    On student loans, you and I have talked about this again 
and again, we heard it talked about here, we had Republicans 
and Democrats trying to get to the solution which I think you 
and the President have asked for, and that is a long-term 
solution where we remove the interest rates to a place where 
the rates are determined by the market, and I hope you will 
continue to work with us because there is still work to be done 
here as we try to move this through. July 1st is coming and we 
are not done yet, but I would like to be able to continue to 
work with you to try to get that long-term solution.
    And then finally, Mr. Salmon raised the point about what is 
called ``incentive compensation for affiliated third party 
entities.'' Now, I mean, probably nobody outside this room or 
maybe only three people know exactly what that is, but actually 
you and I have talked about this a number of times. This is an 
issue that came about because of departmental action and it can 
be fixed by departmental action.
    We were looking on a legislative solution here and we were 
close and thought we had it, but as so often happens around 
here, we missed by a little bit; but it doesn't mean we are 
going to give up. It is something that needs to be fixed. You 
can fix it and I hope you will look at it again.
    And again, I want to thank you for coming here today. As 
always, it is a pleasure to have you. Very excellent testimony, 
complete answers to our questions.
    And then again, I know that you are watching very closely 
what is happening in Oklahoma and those schools and that you 
share our concerns and prayers.
    So, there being no further business, the Committee stands 
adjourned.
    [Questions submitted for the record and their responses 
follow:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Secretary Duncan's response to questions submitted for the 
record follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                ------                                

    [Whereupon, at 12:29 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
